No. 20-3416
UNITED STATES COURT OF APPEALS
FOR.THE SIXTH CIRCUIT
BRIAN HAWKINS,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
TIM SHOOP, Warden,
Respondent-Appellee.

FILED

Oct 13, 2020

DEBORAH S. HUNT, Clerk

ORDER

Before: NORRIS, GRIFFIN, and LARSEN, Circuit Judges.

Brian Hawkins, an Ohio prisoner, petitions for rehearing of this court’s August 10, 2020,
order denying his application for a certificate of appealability.
Upon review, we conclude that the court did not misapprehend or overlook any point of
law or fact when it issued the August 10, 2020 order. See Fed. R. App. P. 40(a)(2). Accordingly,
we DENY the petition for rehearing and DENY all other pending motions as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX K

ZED

(2 of 6)

AUS 18 2020
CHILUCQTHE CORRECTIONAL |
INSTITUTION_______ |

No. 20-3416
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIAN HAWKINS,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.

TIM SHOOP, Warden,
Respondent-Appellee.

FILED

Aug 10, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, Circuit Judge.
Brian Hawkins, an Ohio prisoner proceeding pro se, appeals a district court judgment
denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254. Hawkins has
liiou ail application for a certificate of appealability (COA) and a motion to proceed in forma
pauperis.
Hawkins was sentenced to 10 years of imprisonment after being convicted of rape and
kidnapping. The state appellate court affirmed Hawkins’s convictions and sentence, and the Ohio
Supreme Court declined to accept jurisdiction over the appeal. State v. Hawkins, No. 27019, 2018
WL 1225736 (Ohio Ct. App. Mar. 9, 2018), perm. app. denied, 103 N.E.3d 831 (Ohio 2018)
(table). Hawkins then filed an application to reopen his appeal pursuant to Ohio Appellate Rule
26(B), which the state appellate court denied as untimely. State v. Hawkins, No. 27019 (Ohio Ct.
App. Aug. 15, 2018). Hawkins did not seek review before the Ohio Supreme Court.
Subsequently, Hawkins filed a petition for a writ of habeas corpus, arguing that (1) his right
to a speedy trial was violated; (2) his convictions were against the manifest weight of the evidence;
(3) cumulative errors deprived him of a fair trial; (4) there was insufficient evidence in support of
his convictions, (5) he received ineffective assistance of trial counsel; (6) his due process rights
were violated; (7) the prosecutor committed misconduct; and (8) he received ineffective assistance
APPENDIX J

(3 of 6)
No. 20-3416
-2-

°f appellate counsel. The district court denied the § 2254 petition and declined to issue a COA.
Hawkins v. Shoop, No. 3:19-cv-072, 2020 WL 1163824 (S.D. Ohio Mar. 11, 2020).
Hawkins now seeks a COA on his claims that his right to a speedy trial was violated, that
he received ineffective assistance of trial counsel when counsel failed to prepare or investigate,
that the trial court erred in allowing the jury to view the crime scene, that the prosecutor committed
misconduct because she knew that the victim was over the age of thirteen, and that he received
ineffective assistance of appellate counsel. Hawkins has forfeited review of the issues that he
raised in the district court but did not raise in his application for a COA. See 28 U.S.C.
§ 2253(c)(3); Jackson v. United States, 45 F. App’x 382, 385 (6th Cir. 2002) (per curiam).
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard, the petitioner must
demonstrate “that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322,327 (2003). If the district
court has rejected a claim on procedural grounds, the petitioner must show both that jurists of
reason would find the district court’s procedural ruling debatable and that jurists of reason would
find it debatable whether the petition states a valid constitutional claim. Slack v. McDaniel, 529
U.S. 473, 484 (2000).
Reasonable jurists would not find it debatable whether the district court erred in rejecting
Hawkins’s claim that his right to a speedy trial was violated based on a thirteen-year delay between
the incident and the indictment. Dismissal for a pre-indictment delay is warranted only when the
defendant shows both substantial prejudice to his right to a fair trial and that the delay was
intentionally caused by the .government to gain a tactical advantage. United States v. Lively, 852
F.3d 549, 566 (6th Cir. 2017). The state appellate court rejected this claim on the merits after
determining that Hawkins failed to demonstrate actual prejudice because his testimony that he had
consensual sex with the victim lacked credibility.

Hawkins, 2018 WL 1225736, at *2-7.

Specifically, the court noted that Hawkins’s testimony lacked credibility because the victim

(4 of 6)
No. 20-3416
-3-

immediately reported that she had been raped and identified Hawkins by name and in a photo
lineup; Hawkins denied knowing the victim initially and when the case was reopened; and
Hawkins claimed that the sex was consensual only after discovering that there was DNA evidence
linking him to the victim. Id. at *3-4. Because the state court’s factual findings are presumed
correct and because Hawkins has failed to offer clear and convincing evidence rebutting the state
court’s conclusion, reasonable jurists could not disagree with the district court’s rejection of this
claim. See 28 U.S.C. § 2254(e)(1).
Reasonable jurists would not find it debatable whether the district court erred in rejecting
Hawkins’s claim that he received ineffective assistance of trial counsel. Hawkins argues that
counsel should have introduced a social worker’s commentary from a rape kit and that counsel
should have obtained phone records to corroborate his testimony that a friend informed the police
that he had not raped anyone. To prove ineffective assistance of counsel, a petitioner must show
that his attorney’s performance was objectively unreasonable and that he was prejudiced as a
result. Strickland v. Washington, 466 U.S. 668, 687 (1984). In habeas proceedings, the district
court must apply a doubly deferential standard of review: “[T]he question [under § 2254(d)] is not
whether counsel’s actions were reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland's deferential standard.” Harrington v. Richter, 562 U.S.
86, 105 (2011). The state appellate court rejected this claim on the merits after determining that
Hawkins was unable to show that counsel acted unreasonably because admission of the social
worker’s notes would have violated Ohio’s rape shield law and because Hawkins failed to present
evidence indicating that the police recorded calls and that such records were maintained. Hawkins,
2018 WL 1225736, at *11-13. Because of the double deference due under Strickland and
§ 2254(d), reasonable jurists could not disagree with the district court’s rejection of this claim. See
Richter, 562 U.S. at 105.
Reasonable jurists would not find it debatable whether the district court erred in rejecting
Hawkins’s claim that the trial court erred in allowing the jury to view the crime scene because a

(5 of 6)
No. 20-3416
-4claim that the trial court abused its discretion in allowing a jury view is not cognizable on habeas
review. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991).
Reasonable jurists would not find it debatable whether the district court erred in rejecting
Hawkins s claim that the prosecutor committed misconduct. Hawkins argues that the prosecutor
knowingly presented false testimony when he was indicted for kidnapping because the prosecutor
knew that the victim was over the age of thirteen and was mentally competent. In order to establish
prosecutorial misconduct for presenting false testimony, the defendant must show that (1) the
statement was actually false; (2) the statement was material; and (3) the prosecution knew that it
was false. Peoples v. Lajler, 734 F.3d 503, 516 (6th Cir. 2013). The state appellate court rejected
this claim after determining that the language used in the indictment conformed to Ohio Revised
Code § 2905.01(B)(2).

Hawkins, 2018 WL 1225736, at *17.

Because § 2905.0HBX2)

criminalizes the use of force, threat, or deception in restraining the liberty of another to engage in
sexual activity against the victim’s will as well as any method of restraining the victim’s liberty
when the victim is under the age ofthirteen or mentally incompetent, the prosecutor did not present
false testimony.
Reasonable jurists would not debate the district court’s determination that Hawkins’s
claims that he received ineffective assistance of appellate counsel were procedurally defaulted.
This court has determined that a habeas petitioner procedurally defaults a federal claim in state
court when:
(1) the petitioner fails to comply with a state procedural rule; (2) the state courts
enforce the rule; (3) the state procedural rule is an adequate and independent state
ground for denying review of a federal constitutional claim; and (4) the petitioner
cannot show cause and prejudice excusing the default.
Peoples, 734 F.3d at 510 (quoting Guilmette v. Howes, 624 F.3d 286, 290 (6th Cir. 2010) (en
banc)). Hawkins’s claims that he received ineffective assistance of appellate counsel were raised
in his Rule 26(B) application, which the state appellate court denied as untimely. Because failure
to timely file a Rule 26(B) application constitutes an adequate and independent state ground for
barring habeas relief and the court enforced the rule, reasonable jurists would not disagree with

(6 of 6)
No. 20-3416
-5the district court’s determination that this claim was procedurally defaulted. See Scuba v. Brigano,
527 F.3d 479, 488 (6th Cir. 2007).
If a claim is procedurally defaulted, federal habeas review “is barred unless the prisoner
can demonstrate cause for the default and actual prejudice as a result of the alleged violation of
federal law.” Coleman v. Thompson, 501 U.S. 722, 750 (1991). Although Hawkins claims that
his procedural default should be excused because the state appellate clerk of court interfered with
the filing of his Rule 26(B) application by placing a false cover page on top of his actual cover
page and by jumbling the pages of his application, Hawkins in unable to show that he was
prejudiced because his Fade 26(B) application was dismissed as untimely.

Accordingly,

reasonable jurists would not disagree with the district court’s determination that Hawkins failed to
demonstrate cause excusing his procedural default.
Based upon the foregoing, the court DENIES the application for a certificate of
appealability and DENIES the motion to proceed in forma pauperis as moot.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 3:19-cv-00072-TMR-MRM Doc 11: 29 Hied: 03/11/20 Page: 1 of :ll PAGF.ID ti: 2461

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON

pIecMwe®
MAR I 6 ?m IL
CWfluCOlT-F’cORRBtTICfWAb |
WSTITirnQN^^__ I':

BRIAN HAWKINS,

-__

Petitioner,

:

- vs -

Case No. 3:19-cv-072
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

TIMOTHY SHOOP, Warden,
Chillicothe Correctional Institution
Respondent.
DECISION AND ORDER

*

This habeas corpus case is before the Court on Petitioner’s Objections (ECF No. 25) to the
Magistrate Judge’s Supplemental Report and Recommendations (“Supplemental Report,” ECF
No. 22). Magistrate Judge Merz filed the Supplemental Report after Petitioner objected (ECF No.
20) to the Magistrate Judge’s original Report and Recommendations (“Report,” ECF No. 19) and
the Court recommitted the case for reconsideration (ECF No. 21). The case is also before the
Court on Petitioner’s Objections (ECF No. 28) to the Magistrate Judge’s Decision and Order
i

denying discovery, an expansion of the record, and appointment of counsel (“Decision,” ECF No.
27).

As required by Fed.R.Civ.P. 72(a), the Court has reviewed the Decision for clear legal error
and any clearly erroneous factual findings. The Court’s review of the Reports under Fed.R.Civ.P.
72(b) has been de novo for any portions of those Reports to which Petitioner has made specific
objections.

1

APPENDIX I

Case: 3:19-cv-00072-TMR-MRM Doc it: 29 Filed' 08/11/20 Pane: ? of 11 PAGFID //:

Litigation History

Petitioner was indicted in May 2015 for the July 2002 rape and kidnapping of A.J., a person
then fifteen years old. His motion to dismiss on speedy trial grounds was denied and he'was then
convicted by a jury and sentenced to ten years’ imprisonment. After the convictions were affirmed
on appeal, he filed two applications to reopen the appeal on grounds of ineffective assistance of
appellate counsel, but the Ohio Second District Court of Appeals rejected both as untimely and
Hawkins did not appeal further. Hawkins then filed his habeas corpus Petition in this Court
pleading eight grounds for relief (Petition, ECF No. 3, PagelD 39-52).
In the Report, the Magistrate Judge recommended dismissing Ground Two and Three
because they do not state claims for relief cognizable in habeas corpus, i.e., they are not claims of
federal constitutional violations (Report, ECF No. 19, PagelD 2333-34). Petitioner concedes these
claims are not cognizable (Objections, ECF No. 20, PagelD 2375).
As to Petitioner’s claims in Ground Five that his trial attorney provided ineffective
assistance of trial counsel when he “failed to object to court’s violations of state statutes and rules
of evidence” and “failed to object to many instances of prosecutorial misconduct,” the Report
found them barred by Hawkins’ failure to raise them on direct appeal (Report, ECF No. 19, PagelD
2336, quoting Return of Writ, ECF No. 11, PagelD 2267). When they were pleaded in an
application to reopen and rejected as untimely, Hawkins failed to file a timely appeal to the
Supreme Court of Ohio. The Magistrate Judge rejected Petitioner’s excusing cause argument and
recommended that “the unspecific claims of ineffective assistance of trial counsel in Ground Five
and all of the claims of ineffective assistance of appellate counsel in Ground Eight [be found to

2

Case: 3:19-cv-00072-TMR-MRM Doc fl: 29 Filed: 03/11/20 Page: 3 ol 11 PAG!-ID #. ’Mh?>

be] procedurally defaulted and should be dismissed on that basis.” (Report, ECF No. 19, PagelD
2338).
In Ground One Hawkins presented his speedy trial claim. The Report recommended
deferring to the Second District’s decision of this claim as a not unreasonable application of
Supreme Court precedent (Report, ECF No. 19, PagelD 2339-2348, quoting State v. Hawkins, No.
27019, 2018-Ohio-867, Iflf 7-47 (Ohio App. 2nd Dist. Mar. 9, 2018), appeal not allowed at 153
Ohio St. 3d 1453,2018-0hio-3026). The Report also rejected a new claim raised in the Reply that
the prosecution was barred by the statute of limitations. Id. at PagelD 2348-49. The Supplemental
Report rejected Hawkins’ interpretation of the statute of limitations (Supplemental Report, ECF
No. 22, PagelD 2381-83). It also found the state courts’ decisions on lack of actual prejudice were
not unreasonable determinations of fact. Id. at PagelD 2383-84 (citations omitted).
In Ground Four, Hawkins raised an insufficiency of the evidence claim. The Report
concluded the Second District’s decision was a reasonable application of Jackson v. Virginia, 443
U.S. 307 (1979) (ECF No. 19, PagelD 2349-56). With the five sub-claims of ineffective assistance
of trial counsel in Ground Five that were preserved for merits review, the Report found the Second
District had decided them on the merits and its decision was not an unreasonable application of
Strickland v. Washington, 466 U.S. 668 (1984). Id. at PagelD 2357-64.
In Ground Six, Hawkins claimed he was denied a fair trial when the trial judge allowed a
jury view of a scene which had changed since the crime was committed, cut Hawkins’ own
testimony short, and violated “unspecified Ohio statutes and rules of evidence.” The Report
concluded the Second District’s decision on these claims was entitled to deference under the
Antiterrorism and Effective Death Penalty Act of 1996, Pub. L. 104-132, 110 Stat. 1214
( AEDPA ), and concluded that “the Second District’s decision on the jury view issue is not an

3

^ase: 3:19-cv■ 00072-TMR■■ MRM Doc #: 29 F iled: 03/1.1/20 Page: 4 of 11 PAGLili.) #•

vaw

objectively unreasonable application of clearly established Supreme Court precedent^]” Id. at
PagelD 2365.
As to the prosecutorial misconduct claims made in Ground Seven, the Report concluded
some of them had not been raised at all in the state courts and were therefore procedurally defaulted
(Report, ECF No. 19, PagelD 2365-66). As to the claims considered on the merits in state court,
the Magistrate Judge concluded the decision was not an unreasonable application of the relevant
Supreme Court precedent, Brady v. Maryland, 373 U.S. 83 (1963). Id. at PagelD 2366.
In his first set of Objections, Hawkins waived any objection to the Report’s conclusions on
Grounds Two and Three and sought leave to amend his Objections to add arguments on Grounds
Four through Eight. The Supplemental Report rejected that request because it was not made timely
made, i.e., before the objection deadline passed (ECF No. 22, PagelD 2384).

Analysis

Ground One: Pre-Indictment Delay

In his Objections to the Supplemental Report, Hawkins asserts the Magistrate Judge did
not address any of the standards for assessing prejudice from pre-indictment delay, “particularly
the abuse of discretion the Petitioner has identified.” (Objections, ECF No. 25, PagelD 2392).
Both parties agree that the question of whether pre-indictment delay is a violation of a
defendant’s due process rights is a federal constitutional issue and thus cognizable in habeas
corpus. The Second District Court of Appeals recognized that it was deciding a due process
question when it considered this assignment of error. Hawkins, 2018-Ohio-867, 9 . It noted that
4

Case: 3:19-cv-00072-TMR-MRM Doc //: ?9 Piled: 03/1.1/20 Page: b of:!.:i PAGJ-If.) if

deciding the actual prejudice question involves “a delicate judgment based on the circumstances
of each case.” Id. at K 10. It then laid out at length the testimony hearing by the trial court on the
motion to dismiss. Id. at

11-34 (quoted verbatim in the Report, ECF No. 19, PagelD 2340-45.)

On direct appeal, Hawkins had argued that assessing witness credibility was not properly part of
the standard for deciding prejudice from pre-indictment delay, but the Second District noted the
trial courts must inevitably make credibility decisions when deciding pre-trial motions. Id. at ^ 38.
In claiming that somehow an abuse of discretion standard is to be applied to assessing
prejudice, Hawkins quotes from United States v. Lively (Objections, ECF No. 25, PagelD 2392,
quoting 852 F.3d 549, 565-66 (6th Cir. 2017)), where the court noted its own cases were
inconsistent on this question. But even if abuse of discretion were the standard of review on direct
appeal in the federal system, that would not make that standard compulsory for the state courts
under the Constitution. This Court is not reviewing directly the trial court’s decision on actual
prejudice. Rather, we are confined in habeas corpus to deciding if the state court decision in
question — that of the Second District — is contrary to or an objectively unreasonable application
of United States Supreme court precedent. Hawkins has cited no Supreme Court precedent
requiring a state appellate court to review these decisions under an abuse of discretion standard.
If this Court were to apply an abuse of discretion standard directly to the trial court’s
decision, it would find no abuse of discretion. The judge carefully weighed the evidence of
possible prejudice and found no sufficient prejudice was present.
Under Ground One, Hawkins also claims his prosecution should have been barred by the
statute of limitations for rape as it was amended effective July 16,2015. That statute extended the
statute of limitations for rape cases to either twenty-five years after the crime was committed or
five years after a DNA match is made. As the Magistrate Judge correctly held, Ohio Revised Code

5

Case: 3:19-cv~00072.-TMR-MRM Doc if: 29 Hied: 03/11/20 Page: 0 of 11 MAG HR //■ 2460

§ 2903.13(D)(2) allows a prosecution at any time within the longer of those two periods (Report,
ECFNo. 19, PagelD 2348).
The Court also agrees Hawkins statute of limitations defense is procedurally defaulted
because it was never raised in the state courts. Hawkins claims in his Objections that his statute
of limitations claim is preserved because it is essentially a part of his due process pre-indictment
delay argument (ECF No. 25, PagelD 2393). On the contrary, a statute of limitations is a brightline rule, whereas the actual prejudice standard under the Fourteenth Amendment requires, as the
Second District held, a “delicate balance” in light of the totality of the circumstances of the case.
On the issue of actual prejudice, Hawkins criticizes the Reports for not considering all the
facts de novo (Objections, ECF No. 25, PagelD 2394). But habeas corpus review of facts when
they have previously been reviewed by the state courts is not de novo, but for whether the state
court determination is unreasonable in light of the evidence before those courts. 28 U.S.C. §
2254(d)(2).
As to Ground One, the Reports are ADOPTED.

Ground Five: Ineffective Assistance of Counsel

As the Report notes, Hawkins only preserved five ineffective assistance of trial counsel
sub-claims for habeas review. The Magistrate Judge recommended deference to the Second
District on all five of those (Report, ECF No. 19, PagelD 2357-64). Hawkins made no objections
at all as to this recommendation. Although he asked for more time to make objections, the
Magistrate Judge denied the request because it was untimely. Nevertheless, Hawkins has
submitted lengthy objections on Ground Five in his Objections to the Supplemental Report (ECF

6

Case: 3:19-cv-0Q072-TMR-MRM Doc ir ?9 Rio{j 03/:! 3}'?.() Pricje' / of .11 PAGH!) #- >j;-.*

No. 25, PagelD 2405-06). These objections are untimely. They are also without merit. For
example, Hawkins tries to bootstrap the requirement that a judge deciding a pre-indictment delay
question must consider all the evidence into an ineffective assistance of trial counsel claim that the
lawyer must present all possible evidence, in this case the testimony of the victim at the

motion to

dismiss hearing. Id. Hawkins claims that testimony would have shown the victim’s memory
lapses, but it is unclear how that would have helped him on the motion to dismiss, because she
would not have been his witness at trial. Hawkins does not know what she would have said

, but

if her testimony was adverse to Hawkins and she was then unavailable at trial, the testimony from
the motion hearing could have been introduced at trial. Hawkins is likewise critical

of his attorney

for not introducing other evidence, but has failed to show the content of that evidence

, much less

how it would have been helpful to his case . His arguments on these points is purely conjectural
and do not afford him a basis for relief.

Ground Six: Denial of Due Process by Granting Jury View

As with Grounds Four through Eight, Hawkins made no objections to the recommended
disposition of this Ground in the Repot and has thus waived his right to object.; Moreover, his
Objections (ECF No. 25, PagelD 2407) are without merit. Whether to allow a jury view is a matter
of discretion under Ohio law and even if granting the view was an abuse of discretion, it would
not be reviewable on that basis in habeas corpus. Sinistaj v. Burt, 66 F.3d 804, 807 (6lh Cir. 1995).
As to the separate sub-claim that the trial judge cut off his testimony, the Report correctly
found that what Hawkins wanted to say was hearsay and there is no constitutional right to present
hearsay evidence (Report, ECF No. 19, PagelD 2365).

7

Case: 3:19-cv-a0072-TMR-MRM Doc ii: 2V)f-i!od: 03/11./20 Pane a of :U PAG0D //: 2400

Ground Seven: Prosecutorial Misconduct

Hawkins made no objections to the Magistrate Judge’s original Report as to Ground Seven.
Instead he asked for an extension of time to make objections on Grounds Four through Eight
(Supplemental Report, ECF No. 22, PagelD 2384). The Magistrate Judge denied that request. Id.
Despite that denial, Hawkins has devoted six pages of his Objections to the Supplemental Report
to arguing prosecutorial misconduct claims (ECF No. 25, PagelD 2398-2403). The Court finds
those objections are waived by their omission from Objections to the original Report. Moreover
Hawkins’ Seventh Ground for Relief in the Petition is limited to very unspecific claims under
Brady v. Maryland, 373 U.S. 83 (1963), and unsupported claims that the prosecutor produced false
evidence and misrepresented the evidence that had been introduced. He never specified the facts
of these claims at all. The only misconduct claim alleged on direct appeal was misstatement of
the age of the victim in the indictment which was forfeited by failure to object in the trial court.
Hawkins, 2018-Ohio-8667, ffl 112-18. As to Brady violations, the only claim on direct appeal was
suppression of the victim’s Grandview hospital records which the Second District found Hawkins
knew about. Id. at

121-26. The Magistrate Judge found the Second District decision on these

two claims was an objectively reasonable application of Brady and other relevant Supreme Court
precedent and the Court agrees.
As to other claims of prosecutorial misconduct raised for the first time in the Reply or
Hawkins Objections to the Supplemental Report, they are forfeited because never presented to
the state courts.

8

Case: 3:19-cv-00072-TMR-MRM Doc #: 29 Hied. 03/31/20 Page. 9 of l;i pAGHO /,

Ground Eight: Ineffective Assistance of Appellate Counsel

As with Grounds Four through Seven, Hawkins waived his right to object to the Report’s
conclusions on Ground Eight because he did not make those objections within the time allowed
by Fed.R.Civ.P. 72(b). His sole objection on the Ground to the Supplemental Report is his claim
that he has in fact shown cause and prejudice to excuse procedural default (Objections, ECF No.
25, PagelD 2407, citing Coleman v. Thompson, 501 U.S. 722, 753 (1991), and Murray v. Carrier,
477 U.S. 478 (1986)). He makes no new argument on this point, and the Court finds the Magistrate
Judge adequately dealt with this claim in the Report.

Magistrate Judge Denial of Discovery, Expansion of the Record, and Appointment of
Counsel

On the same day that he filed Objections to the Supplemental Report, Hawkins also filed a
Motion for Discovery, for Expansion of the Record, and for Appointment of Counsel (ECF No.
26). These are non-dispositive pretrial matters on which Magistrate Judges are authorized to make
decisions as opposed to recommendations. Fed.R.Civ.P. 72(a); 28 U.S.C. § 636(b). However,
such decisions are reviewable on objection, and Hawkins files timely Objections to this Order
(ECF No. 28).
The standard of review on nondispositive matters is clearly erroneous as to factual findings
or contrary to law as to legal conclusions. United States v. Curtis, 237 F.3d 598, 603 (6th Cir.
2001), citing United States v. Raddatz, 447 U.S. 667,673 (1980). Because ofthe clearly erroneous
standard, the reviewing district judge is limited to matters which were of record before the
Magistrate Judge. When the Magistrate Judge in deciding a nondispositive matter is exercising

9

Case; 3:19-cv-00072-TMR-MRM Doc //: 29 Filed; 03/1 j/20 Page. 10 of ;U PAGO ID A ;?4/0

the discretion granted the court under either statute or rules, review is for abuse of discretion.
Snowden by and through Victor v. Connaught Labs., 136 F.R.D. 694, 697 (D. Kan. 1991), citing
Detection Sys., Inc. v. Pittway Corp96 F.R.D. 152, 154 (W.D.N.Y. 1982).
Hawkins criticizes the Decision for finding both that his request for discovery is untimely
and that it is premature (Objections, ECF No. 28, PagelD 2440). Yet, a request for discovery
under Habeas Rule 6, made after the case has been submitted for decision on the merits and in fact
has received not one but two Reports on the merits, is too late. It is also premature in these sense
that a habeas court cannot consider new facts added to the record in federal court until it has
determined that the state court decision cannot stand because it is an unreasonable determination
of the facts on the basis of the evidence presented in state court. Cullen v. Pinholster, 563 U.S.
170(2011).
The Court agrees with the Magistrate Judge that decisions on expanding the record are
subject to the limitations imposed on evidentiary hearings by Pinholster. Because the Pinholster
standard has not been met in this case, the Magistrate Judge’s decision on expansion of the record
was correct.
Finally, the decision to deny appointment of counsel is consistent with the practice of this
Court in non-capital habeas corpus cases: there are simply insufficient resources to permit such
appointment except in the rarest of cases. Consequently, Hawkins’s Objection (ECF No. 28,
PagelD 2444) is overruled
The Magistrate Judge’s Decision on discovery, expansion of the record, and appointment
of counsel is neither an abuse of discretion, clearly erroneous, or contrary to law.

10

Case: 3:19-cv-00072-TMR-MRM Doc U-. 29 riled: 03/11/20 Page: 11 of li PA^hiD #:

i

Conclusion

Having reviewed the Magistrate Judge’s Reports de novo in light of Petitioner’s
Objections, the Court adopts the Reports and orders that the Petition herein be dismissed with
prejudice. The Clerk shall enter a separate judgment to that effect. Because reasonable jurists
would not disagree with this conclusion, the Petitioner is denied a certificate of appealability and
that the Court certifies to the Sixth Circuit that any appeal would be objectively frivolous and
should not be permitted to proceed in forma pauperis.

March 11,2020

*s/Thomas M. Rose

Thomas M. Rose
United States District Judge

11

!

uase: 3:19-cv-00072-TMR-MRM Doc #: 27 Filed: 02/18/20 Page: 1 of 6 PAGEID #: 2434

FEB 2 1 2020
CHILLICOTWtW?©DII(DNAB..
INSTFltiMWl_______

EN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OFTmMkWmWW
WESTERN DIVISION AT DAYTO|N^^E ^
FEB 2 1 2020

BRIAN HAWKINS,
Petitioner,

:

- vs -

Case No. 3:19-cv-C

CHILUCOTHC CORRECTIONAt■7-)
INSTITUTION
J

District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

TIMOTHY SHOOP, Warden,
Chillicothe Correctional Institution
Respondent.

DECISION AND ORDER

This habeas corpus case is before the Court on Petitioner’s combined Motions for Leave
to Conduct Discovery, for Expansion of the Record, and for Appointment of Counsel (ECF No.
26).
The Court has already considered the case on the merits and the Magistrate Judge has filed
two Reports and Recommendations recommending that the Petition be dismissed with prejudice.
Petitioner’s Motion was only filed contemporaneously with his Objections to the Supplemental
Report and Recommendations (ECF No. 25).

Hawkins’ Motion

Hawkins seeks the Court’s assistance in obtaining the following in discovery:

1
APPENDIX H

Case: 3:19-cv-00072-TMR-MRM Doc #: 27 Filed: 02/18/20 Page: 2 of 6 PAGEID #: 2435

1. Copies of all notes and contents of both Detective Carol Ewing’s and detective Phil
Olinger’s entire case file packets
2. Detective Dulaney’s Notes and copy of Petitioner’s unredacted DVD interview with
Detective Dulaney
3. Copies of Petitioner’s pretrial hearing; decision hearing of motion to dismiss; testimonies
of Alice Wortham and Charlotte Lemmings
4. Phone records of Toni Ousley’s house on Osmond between December 18, 2003 through
April 2004 and phone records, including recorded calls of Ousley’s calling of the Dahton
Police Department between December 18, 2003, through April 2004.
5. Copies of trial counsel’s investigative notes and work product, in addition to investigator’s
notes of Wayne Miller and Gary Ware and their work product, particularly interviews of
Petitioner and A.J.
(Motion, ECF No. 26, PagelD 2415, 2418, 2420, and 2421.)
Once this information is obtained, Hawkins seeks to expand the record to include it. In
order to assist with obtaining and presenting this material, seeks appointment of counsel.

Analysis

Hawkins’ Motion is untimely. The procedure for litigating habeas corpus cases as set out
in the Rules Governing §_ 2254 Cases parallels the procedure for litigating civil cases in federal
court. First there are the pleadings: petition, answer, and reply. When the Court orders an answer
under habeas Rule 5, it also orders the Attorney General to produce, serve, and file the state court
2

Case: 3:19-cv-00072-TMR-MRM Doc #: 27 Filed: 02/18/20 Page: 3 of 6 PAG El D #: 2436

record, because it is usually that record which is being,evaluated in habeas corpus. Ordinarily the
case is ripe for decision once those filings are complete. As it does in almost all habeas corpus
cases, the Magistrate Judge treated this case as ripe once those filings were complete.
In an ordinary civil case, the Court will set a cut-off for discovery in a pre-trial order filed
under Fed. R. Civ. P. 16. Although discovery in civil cases is party-initiated and does not require
court permission, parties may not conduct discovery after the cut-off date, particularly b ecause
that date is followed by a cut-off date for summary judgment practice. In habeas cases the parties
must obtain court permission to conduct discovery and there is no summary judgment practice, but
the same rationale for orderly consideration of the case needs to prevail.
In this case Petitioner seeks to initiate discovery after the Magistrate Judge has filed two
reports on the merits. Proceeding in that way would be a substantial waste of judicial resources.
Therefore the request for discovery is denied in part because it is untimely.
Petitioner has also not shown good cause for discovery. A habeas petitioner is not entitled
to discovery as a matter of course, but only upon a fact-specific showing of good cause and in the
Court’s exercise of discretion. Rule 6(a), Rules Governing § 2254 Cases; Bracy v. Gramley, 520
U.S. 899 (1997); Harris v. Nelson, 394 U.S. 286 (1969); Byrd v. Collins, 209 F.3d 486, 515-16
(6th Cir. 2000). Before determining whether discovery is warranted, the Court must first identify
the essential elements of the claim on which discovery is sought. Bracy, 520 U.S. at 904, citing
United States v. Armstrong, 517 U.S. 456, 468 (1996).

The burden of demonstrating the

materiality of the information requested is on the moving party. Stanford v. Parker, 266 F.3d 442,
460 (6th Cir. 2001), cert, denied, 537 U.S. 831 (2002), citing Murphy v. Johnson, 205 F.3d 809,
813-15 (5th Cir. 2000). “Even in a death penalty case, ‘bald assertions and conclusory allegations

3

Case. 3.19-CV-00072-TMR-MRM Doc #: 27 Filed: 02/18/20 Page: 4 of 6 PAGEID #: 2437

do not provide sufficient ground to warrant requiring the state to respond to discovery or require
an evidentiary hearing.”’ Bowling v. Parker, 344 F.3d 487, 512 (6th Cir. 2003), cert, denied, 543
U.S. 842 (2004), quoting Stanford, 266 F.3d at 460.
Petitioner attempts to relate his discovery requests to claims of ineffective assistance of
trial counsel, prosecutorial misconduct, and judicial bias. In the Petition he makes claims of
ineffective assistance of trial and appellate counsel and prosecutorial misconduct

in Grounds for

Relief Five, Seven and Eight, but his claims in the instant Motion are far broader than the claims
in the Petition. For example, Hawkins claims viewing his trial counsel’s and investigators notes .
and work product are “relevant to whether trial counsel as ineffective for failing to investigate and
prepare for Motion to Dismiss and trial.” (ECF No. 26, PagelD 2422). Furthermore, Hawkins
now attempts to add a claim ofjudicial bias'which is never made in the Petition and which he has
never sought to amend the Petition to add.
Therefore the Motion for discovery is DENIED because Hawkins has not shown good
cause as required by Habeas Rule 6.
Once discovery is complete, Hawkins seeks to expand the record to include the fruits of
discovery. Most of the authority he cites for this conclusion dates from before the Supreme Court’s
decision in Cullen

Pinholster, 563 U.S. 170 (2011), which restricted the evidence a habeas

corpus court could hear to what was in the state court record, at least until a determination had
been made under 28 U..S.C. § 2254(d)(1) or (2). Hawkins’ motion to expand the record is denied
on the basis of Pinholster.
Finally, Hawkins seeks the appointment of counsel.

Although 18 U.S.C. § 3006A

authorizes appointment of counsel in habeas corpus cases, Congress has provided scarce funding

4

Case: 3:19-cv-00072-TMR-MRM Doc #: 27 Filed: 02/18/20 Page: 5 of 6 PAGEID #: 2438

for such appointments. They are required to be made when an evidentiary hearing is granted and
the Court must appoint two attorneys for any capital case.1 On that basis, Hawkins’ motion for
appointment of an attorney is also denied.

February 18, 2020.

si MicfiaeC'K Merz
United States Magistrate Judge

‘ The Southern District of Ohio has been for many years one of the top five districts in the nation in pending capital
habeas corpus cases.
5

Case: 3:19-cv-00072-TMR-MRM Doc #: 22 Filed: 12/27/19 Page: 1 of 7 F

ISlfflB
DEC 31 2019

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON

CHILLIGQTHc CORRECTIONAL
INSTITUTE N

BRIAN HAWKINS,
Petitioner,

:

- vs -

Case No. 3:19-cv-072
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

TIMOTHY SHOOP, Warden,
Chillicothe Correctional Institution
Respondent.

SUPPLEMENTAL REPORT AND RECOMMENDATIONS

This habeas corpus case, brought pro se by Petitioner Brian Hawkins pursuant to 28 U.S.C.
§ 2254, is before the Court on Hawkins’ Objections (ECF No. 20) to the Magistrate Judge’s Report
and Recommendations recommending dismissal (“Report, ECF No. 19). District Judge Rose has
recommitted the case for reconsideration in light of the Objections (Recommittal Order, ECF No.
21). Hawkins does not object to the dismissal of Grounds Two and Three, but makes specific
objections as to the other Grounds, as well as to the recommendation to deny a certificate of
appealability and certify that an appeal would be objectively frivolous. Hawkins’ Objections are
considered seriatim.

Ground One: Denial of Due Process by Pre-Indictment Delay

The conduct upon which Hawkins was convicted happened in July 2002 and he was not
indicted until May 2015. He filed a motion to dismiss for pre-indictment delay which the trial
1
APPENDIX G

Case: 3:19-cv-00072-TMR-MRM Doc #: 22 Filed: 12/27/19 Page: 2 of 7 PAGEID #: 2381

court denied after an extensive evidentiary hearing. After he was convicted by a jury, Hawkins
appealed, raising the pre-indictment delay as a principal as his First Assignment of Error. The
Second District Court of Appeals that issue at great length; its opinion is reproduced in the Report
(ECF No. 19, PagelD 2339-48, quoting State v. Hawkins, 2018-Ohio-867 (2nd Dist. Mar. 9,2018).
The Report concluded that this state court decision was neither contrary to nor an objectively
unreasonable application of relevant Supreme Court precedent and was therefore entitled to
deference under 28 U.S.C. § 2254(d). Id. at PagelD 2349.

Statute of Limitations Objection

In his Reply Hawkins claimed that his prosecution was barred by the statute of limitations
in Ohio Revised Code § 2901.13(D)(1) and (2)(ECF No. 18, PagelD 2309). The Report found this
was a new claim, one that was neither raised in the Petition nor at any time in the state courts.
Passing over these procedural points, the Report found the limitations claim was without merit. §
2901.13(D)(2) provides:
(2) If a DNA record made in connection with the criminal
investigation of the commission of a violation of section 2907.02 or
2907.03 of the Revised Code is determined to match another DNA
record that is of an identifiable person and if the time of the
determination is within twenty-five years after the offense is
committed, prosecution of that person for a violation of the section
may be commenced within the longer of twenty-five years after the
offense is committed or five years after the determination is
complete.

This is indeed a case in which the DNA found in the victim’s rape kit was matched with Hawkins’
DNA. That determination was made “within twenty-five years after the offense [was] committed,”
to wit, before July 2027, which would be twenty-five years after July 2002, the time of the rape.
2

Case: 3:19-cv-00072-TMR-MRM Doc #: 22 Filed: 12/27/19 Page: 3 of 7 PAGEID #: 2382

The prosecution was also commenced within that twenty-five year period, so there was no
violation of the statute of limitations. But Hawkins argues that the phrase “or five years after the
determination is complete” controls instead. This construction makes no sense of the English of
the sentence. It would turn “longer of’ into “shorter of.” It would also defeat the purpose of the
statute, which was to extend the statute of limitations in rape cases, as Hawkins himself admits in
his Objections (ECF No. 20, PagelD 2371). In a case such as this, Hawkins’ construction of the
language would have shortened the statute of limitations well below the twenty years provided by
Ohio law before the 2015 amendment. See State v. Jones, 148 Ohio St. 3d 167 (2016).
In interpreting a statute a court should:
1. Decide what purpose ought to be attributed to the statute and to
any subordinate provision of it which may be involved; and then
2. Interpret the words of the statute immediately in question so as
to carry out the purpose as best it can, making sure, however,
that it does not give the words either (a) a meaning they will not
bear, or (b) a meaning which would violate any established
policy of clear statement.
Hart and Sacks, The Legal Process (Eskridge & Frickey ed. 1994), p. 1169. Interpreting “longer
of’ to mean “shorter of’ makes no sense of the language or purpose of Ohio Revised Code §
2901.13(D)(2).
Moreover, the Reply is the first time Hawkins raised this statute of limitations claim. He
criticizes the Report for treating it as a stand-alone claim and says it is just part of his pre­
indictment delay claim. Not so. A statute of limitations claim is analytically distinct from a due
process undue delay claim. If the statute of limitations has run, a person may not be prosecuted at
all/whether or not he has been prejudiced by the delay; the bar is the statute and not the Due
Process Clause. Hawkins never pleaded a statute of limitations bar in his Petition and new claims
may not be raised in a reply. Jalowiec v. Bradshaw, 657 F.3d 293 (6th Cir. 2011), citing Tyler v.
3

Case: 3:19-cv-00072-TMR-MRM Doc #: 22 Filed: 12/27/19 Page: 4 of 7 PAGEID #: 2383

Mitchell, 416 F.3d 500, 504 (6th Cir. 2005). More fundamentally, Hawkins never made this claim
in the state courts and thus it is procedurally defaulted. Coleman v. Thompson, 501 U.S. 722, 750
(1991).

Proof of Actual Prejudice

Apart from the statute of limitations, Hawkins relies on his claim that he proved he was
actually prejudiced by the delay. Both Judge Tucker and the Court of Appeals rejected this claim
because it was based on Hawkins’ speculation about what his absent or deceased witnesses would
have testified to and Hawkins’ own testimony was not credible: it was only afterhe was confronted
with the DNA match that he admitted he had had sex with A.J- on the night in question at the place
in question and claimed that it was consensual.
Hawkins seems to believe that if a defendant makes a claim of actual prejudice, a court
must accept it at face value, without evaluating its credibility. But as the Second District’s opinion
and the Report both point out, judicial findings that depend on oral testimony must always evaluate
whether the testimony is credible.
Hawkins relies on State v. Luck, 15 Ohio St. 3d 150 (1984), which he says in turn relies on
federal precedent, (Objections, ECF No. 20, PagelD 2370, citing United States v. Lovasco, 431
U.S. 783 (1977) and United States v. Marion, 404 U.S. 307 (1971)). In Luck the Supreme Court
of Ohio upheld a lower court’s dismissal of an indictment on due process grounds only when
considered in conjunction with the violation of her Sixth Amendment right to counsel. In contrast
to this case, however, the Ohio courts found actual prejudice from the delay. Luck at 154. Here
the state courts found no actual prejudice because they did not believe Hawkins’ testimony about

4

Case: 3:19-cv-00072-TMR-MRM Doc #: 22 Filed: 12/27/19 Page: 5 of 7 PAGEID #: 2384 '

missing evidence.
Lovasco does not provide a different rule of decision. The Supreme Court held that premdictment delay was irrelevant for Sixth Amendment speedy trial purposes. Under the Fourteenth
Amendment, even the death of two potential witnesses was not sufficient prejudice for a dismissal
because Lovasco had not shown how their testimony would have assisted the defense. In this case,
the testimony of the absent or deceased witnesses could have helped Hawkins; but he had no proof
of what they would have testified to beyond his own self-interested speculation:’
Hawkins is not entitled to habeas corpus relief on the First Ground.

Grounds Four Through Eight

Having waived any objections to the Report's conclusion on Grounds Two and Three,
Hawkins, then asks permission to amend the Objections to add argument on Grounds Four through
Eight, pleading inadequate library access, and asking for another sixty days’ time for completion.
But Hawkins did not seek an extension of time before the Objections were due1 and the Magistrate
Judge cannot consider objections that have not yet been made. In the absence of a proffered actual
amendment, the motion to amend is denied.

Certificate of Appealability

Although he objects to the Magistrate Judge’s conclusion that a certificate of appealability

1 Hawkins calculated his due date as December 26, 2019, counting seventeen days from the date of his receipt of the
Report on December 9,2019 (See Received stamp at ECFNo. 2377). The seventeen days actually runs from the date'
of service which was made by mail on December 4, 2019.1 under Fed.R.Civ.P. 5, service is complete upon mailing.
The Objections were thus due to be filed by being deposited in the prison mail system by December 23, 2019.

5

Case: 3:19-cv-00072-TMR-MRM Doc #: 22 Filed: 12/27/19 Page: 6 of 7 PAGEID #: 2385

should not be issued, Hawkins offers no analysis on this point. That is, he makes no showing that
reasonable jurists would disagree with the conclusion that Ground One should be dismissed.

Conclusion

Having reconsidered the matter in light of the Objections, the Magistrate Judge again
concludes the Petition should be dismissed with prejudice. Because reasonable jurists would not
disagree with this conclusion, it is also recommended that May be denied a certificate of
appealability and that the Court certify to the Sixth Circuit that any appeal would be objectively
frivolous and should not be permitted to proceed in forma pauperis.

December 26, 2019.
s/ MicfiaeCfL Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Because this document is being served by mail, three days are added under
Fed.R.Civ.P. 6. Such objections shall specify the portions of the Report objected to and shall be
accompanied by a memorandum of law in support of the objections. A party may respond to
another party’s objections within fourteen days after being served with a copy thereof. Failure to
make objections in accordance with this procedure may forfeit rights on appeal.

6

Case: 3:19-cv-00072-TMR-MRM Doc #: 21 Filed: 12/20/19 Page: 1 of 1 PAGEID #: 2319

PiCSHiP
DEC 3 0 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO CH,LUC^^cn0NA'WESTERN DIVISION AT DAYTON
—”-------- e
”
BRIAN HAWKINS,
Petitioner,

:

- vs -

Case No. 3:19-CV-072
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

TIMOTHY SHOOP, Warden,
Chillicothe Correctional Institution
Respondent.

RECOMMITTAL ORDER

This habeas corpus case is before the Court on Petitioner’s Objections (ECF No. 20) to the
Magistrate Judge’s Report and Recommendations (ECF No. 19), recommending dismissal of the
Petition.
The District Judge has preliminarily considered the Objections and believes they will be
more appropriately resolved after further analysis by the Magistrate Judge. Accordingly, pursuant
to Fed. R. Civ. P. 72(b)(3), this matter is hereby returned to the Magistrate Judge with instructions
to file a supplemental report analyzing the Objections and making recommendations based on that
analysis.

December 20, 2019

*s/Thomas M. Rose
Thomas M. Rose
United States District Judge

1
APPENDIX F

uase. 3.19-CV-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 1 of 39 PAGEID #: 2329

DEC 0 9 2019

IN THE UNITED STATES DISTRICT COURT
CORRECTIONAL
FOR THE SOUTHERN DISTRICT OF OHIOf CHILIICQTH2
INSTITUTION
WESTERN DIVISION AT DAYTON
BRIAN HAWKINS,
Petitioner,

:

- vs -

Case No. 3:19-cv-072
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz

TIMOTHY SHOOP, Warden,
Chillicothe Correctional Institution
Respondent.

REPORT AND RECOMMENDATIONS

This is a habeas corpus case brought pro se by Petitioner Brian Hawkins pursuant to 28
U.S.C. § 2254. Hawkins seeks relief from his convictions for rape and kidnapping in the Common
Pleas Court of Montgomery County, Ohio. The case is ripe for consideration on the Petition (ECF
No. 3), the State Court Record (ECF No. 10), the Return of Writ (ECF No. 11), and Petitioner’s
Reply (ECF No. 18).

Litigation History

Hawkins was indicted in May 2015 for the July 2002 rape and kidnapping of A.J., a person
then fifteen years old. After his motion to dismiss for lack of a speedy trial was denied, Hawkins
was convicted by a jury. The trial judge then merged the rape and kidnapping counts and sentenced
him to ten years’ imprisonment.

1
APPENDIX E

Case: 3:19-cv-00072~TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 2 of 39 PAGEID #: 2330

Hawkins appealed to the Second District Court of Appeals which affirmed the trial court
judgment. State v. Hawkins, 2018-Ohio-867 (Ohio App. 2nd Dist. Mar. 9, 2018), appellate
jurisdiction declined, 153 Ohio St.3d 1453, 2018-0hio-3026 (2018). On June 11, 2018, Hawkins
filed an Application to Reopen his direct appeal to raise nine assignments of error the omission of
which allegedly constituted ineffective assistance of appellate counsel. On July 11,2018, he filed
another such application with eleven omitted assignments of error. The Second District dismissed
both of these as untimely and Hawkins did not appeal to the Supreme Court of Ohio.
While the direct appeal was pending, Hawkins filed a petition for post-conviction relief
under Ohio Revised Code § 2953.21. That petition remained pending when the Return of Writ
was filed here on August 14, 2019 (ECF No. 11, PagelD 2241).
Hawkins’ Petition here, purportedly mailed March 11,2019, pleads the following grounds
for relief:
Ground 1: The trial court erred in overruling Mr. Hawkins’ motion
to dismiss, as the thirteen year [sic] pre-indictment delay caused
actual prejudice to his right to a fair trial; thus violating his due
process rights.
Supporting Facts: Thirteen year [sic] pre-indictment delay,
without new evidence.
Prosecutor claimed original casefile, mental health and hospital
records missing.
Witnesses deceased and/or unavailable.
Alleged victim not remember incident [sic] and provided
inconsistent testimony.
Ground 2: The trial court erred in finding Mr. Hawkins guilty of
rape and kidnap as the convictions are against the manifest weight
of the evidence.
Supporting Facts: Physical evidence supports events as described
by petitioner.
Alleged victim not remember incident [sic] and provided inconsistent
testimony.
Court cut short defendant-petitioner’s testimony.
2

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 3 of 39 PAGEID #: 2331

Counsel failed to provide notes of investigator’s conversations with
alleged victim, subsequently hindering trial counsel from effective
cross-examination
Ground 3: The cumulative effect of errors deprived Mr. Hawkins of a
fair trial warranting a reversal under the cumulative error doctrine.
Supporting Facts: Thirteen year [sic] pre-indictment delay, without
new evidence.
Inconsistent testimony.
Court violated state statutes and rules of evidence.
Prosecutorial misconduct, including manipulation, fabrication and loss
of evidence/5ra<fy violation.
Ineffective assistance of counsel.
Ground 4: Hawkins’ convictions were based upon insufficient
evidence.
Supporting Facts: No physical evidence.
Alleged victim not remember incident [sic] and testimony inconsistent
and inconclusive with itself.
Withheld exculpatory Brady material.
Prosecutorial misconduct manipulated and fabricated evidence.
Alleged crime scene viewed by jury had significantly changed after
thirteen years.
Exculpatory evidence withheld.
Ground 5: Hawkins’ counsel provided constitutionally ineffective
assistance under the Fifth, Sixth, and Fourteenth Amendments of the
United States Constitution and Article I, Sec. 10 and 16 of the Ohio
Constitution.
Supporting Facts: Trial counsel failed to call alleged victim to testify
at hearing of motion to dismiss; erred requesting for jury viewing of
alleged crime scene that had significantly changed after thirteen years;
failed to argue for relevant exculpatory evidence; failed to provide
specific notes in order to effectively cross-examine key witness; failed
to object to court’s violations of state statutes and rules of evidence;
failed to object to many instances of prosecutorial misconduct.
Ground 6: The trial court denied Hawkins his right to due process
and a fair trial in violation of the Fifth and Fourteenth Amendment
to the United States Constitution and Article I, Sec. 16 of the Ohio
Constitution.
Supporting Facts: Trial court permitted viewing of alleged crime
scene that had significantly changed after thirteen years; cut short
the testimony of defendant-petitioner in pretrial motion to dismiss
3

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 4 of 39 PAGEID #: 2332

hearing, as well as during trial; violated Ohio statutes and rules of
evidence.
Ground 7: Prosecutor misconduct so infected these proceedings
with unfairness as to make the resulting conviction a denial of due
process.
Supporting Facts: Prosecutor withheld exculpatory evidence,
violating Brady; misrepresented evidence; produced false evidence.
Ground 8: Appellate counsel was ineffective for failing to present
issues not fully considered that should have been that prove an
unreliable process was used to obtain a wrongful criminal
conviction prejudicing appellate [sic].
Supporting Facts: Appellate counsel failed to properly and
thoroughly demonstrate in detail issues as well as dead bang
winning issues specifically requested by defendant-petitioner that
show due process violations were used to unconstitutionally convict
defendant-petitioner, inter alia: trial counsel was unprepared at
motion to dismiss hearing and at trial; trial counsel failed to object
to many due process violations, including thirteen year [sic] pre­
indictment delay, hearsay, confrontation, prosecutorial misconduct
that materially influenced trial; trial counsel failed to investigate
case, including not motioning for discovery, or Brady exculpatory
evidence; trial counsel failed to object to trial court’s plain errors,
including unconstitutional sidebars and violations of Ohio statutes; trial
court failed to issue and trial counsel failed to request necessary case
specific jury instructions; appellate counsel also failed to use 11-R
evidence trial court specifically reserved for appeal; trial and appellate
counsel refused to provide defendant-petitioner with all judgment
entries and transcripts of proceedings.
(Petition, ECF No. 3, PagelD 39-52.)

Analysis

Although Hawkins pleads eight numbered grounds for relief, many of his grounds contain
sub-claims which are logically and legally related to different constitutional rights than the right
claimed in the ground itself. The Magistrate Judge believes it will be useful to eliminate from
4

Case: 3:19-cv-00072~TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 5 of 39 PAGEID #: 2333

further consideration those claims and sub-claims which have not been preserved for decision on
the merits.

Cognizability

Federal habeas corpus is available only to correct federal constitutional violations. 28 U.S.C.
§ 2254(a); Wilson v. Corcoran, 562 U.S. 1, 6 (2010); Lewis v. Jeffers, 497 U.S. 764, 780 (1990);
Barclay v. Florida, 463 U.S. 939 (1983); Smith v. Phillips, 455 U.S. 209, 221 (1982). ”[I]t is not
the province of a federal habeas court to reexamine state court determinations on state law
questions. In conducting habeas review, a federal court is limited to deciding whether a conviction
violated the Constitution, laws, or treaties of the United States." Estelle v. McGuire, 502 U.S. 62,
67-68 (1991); see also Elmendorf v. Taylor, 23 U.S. (10 Wheat.) 152, 160 (1825)(MarshaIl C. J.).
Several of the claims made by Hawkins are not for federal constitutional violations and
therefore not cognizable in this proceeding. They are as follows:
Ground Two claims that Hawkins’ conviction is against the manifest weight of the evidence.
A weight of the evidence claim is not a federal constitutional claim. Johnson v. Havener, 534 F.2d
1232 (6th Cir. 1986); Ob’Saintv. Warden, Toledo Correctional Inst, 675 F.Supp.2d827, 832(S.D.
Ohio 2009).
Ground Three makes a claim of cumulative error. As in Sheppard v. Bagley, 657 F.3d 338,
348 (6th Cir. 2011), Hawkins “argues that the cumulative effect of these errors rendered his trial
fundamentally unfair.” Id. Post-AEDPA, however, that claim is not cognizable in habeas corpus.
Id., citing Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005). Cumulative error claims are not
cognizable because the Supreme Court has not spoken on the issue. Williams v. Anderson, 460

5

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 6 of 39 PAGEID #: 2334

F.3d 789, 816 (6th Cir. 2006), citing Moore, supra.
Grounds Two and Three should therefore be dismissed for failure to state a federal
constitutional claim on which relief can be granted in a habeas corpus case.

Procedural Default

The procedural default doctrine in habeas corpus is described by the Supreme Court as
follows:
In all cases in which a state prisoner has defaulted his federal claims
in state court pursuant to an adequate and independent state
procedural rule, federal habeas review of the claims is barred unless
the prisoner can demonstrate cause of the default and actual
prejudice as a result of the alleged violation of federal law; or
demonstrate that failure to consider the claims will result in a
fundamental miscarriage ofjustice.
Coleman v. Thompson, 501 U.S. 722, 750 (1991); see also Simpson v. Jones, 238 F.3d 399, 406
(6th Cir. 2000). That is, a petitioner may not raise on federal habeas a federal constitutional rights
claim he could not raise in state court because of procedural default. Wainwright v. Sykes, 433
U.S. 72, 86-87 (1977); Engle v. Isaac, 456 U.S. 107,110 (1982). “Absent cause and prejudice, ‘a
federal habeas petitioner who fails to comply with a State’s rules of procedure waives his right to
federal habeas corpus review.”’ Boyle v. Million, 201 F.3d 711, 716 (6th Cir. 2000), quoting
Gravley v. Mills, 87 F.3d 779,784-85 (6th Cir. 1996); Murray v. Carrier, All U.S. 478,485 (1986);
Engle, 456 U.S. at 110; Wainwright, 433 U.S. at 87.
[A] federal court may not review federal claims that were
procedurally defaulted in state court—that is, claims that the state
court denied based on an adequate and independent state procedural
rule. E.g., Beard v. Kindler, 558 U.S. 53, 55, 130 S.Ct. 612, 175
L.Ed.2d 417 (2009). This is an important “corollary” to the
6

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 7 of 39 PAGEID #: 2335

exhaustion requirement. Dretke v. Haley, 541 U.S. 386, 392, 124
S.Ct. 1847,158 L.Ed.2d 659 (2004). “Just as in those cases in which
a state prisoner fails to exhaust state remedies, a habeas petitioner
who has failed to meet the State’s procedural requirements for
presenting his federal claims has deprived the state courts of an
opportunity to address” the merits of “those claims in the first
instance.” Coleman [v. Thompson,] 501 U.S. [722,] 731-732, 111
S.Ct. 2546, 115 L.Ed.2d 640[(1991)]. The procedural default
doctrine thus advances the same comity, finality, and federalism
interests advanced by the exhaustion doctrine. See McCleskey v.
Zant, 499 U.S. 467, 493, 111 S.Ct. 1454, 113 L.Ed.2d 517 (1991).
Davila v. Davis, 137 S.Ct. 2058, 2064 (2017).
"A claim may become procedurally defaulted in two ways.”
Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006). First, a
claim is procedurally defaulted where state-court remedies have
been exhausted within the meaning of § 2254, but where the last
reasoned state-court judgment declines to reach the merits because
of a petitioner's failure to comply with a state procedural rule. Id.
Second, a claim is procedurally defaulted where the petitioner failed
to exhaust state court remedies, and the remedies are no longer
available at the time the federal petition is filed because of a state
procedural rule. Id.
Lovins v. Parker, 712 F.3d 283, 295 (6th Cir. 2013).
Under Ohio law, ineffective assistance of trial counsel claims or indeed any constitutional
claims that depend on evidence outside the appellate record must be raised in a petition for post­
conviction relief under Ohio Revised Code § 2953.21 because evidence cannot be added to the
record on direct appeal. State v. Madrigal, 87 Ohio St.3d 378, 390-91 (2000); State v. Hartman,
93 Ohio St. 3d 274,299 (2001); State v. Keith, 79 Ohio St. 3d 514, 536 (1997), citing State v. Scott,
63 Ohio App. 3d 304, 308 (1989).

Conversely, constitutional claims including ineffective

assistance of trial counsel claims which are supported by the appellate record must be raised on
direct appeal and will be barred by res judicata if attempted to be raised later in post-conviction.
State v. Reynolds, 79 Ohio St. 3d 158, 161 (1997); State v. Stejfen, 70 Ohio St.3d 399, 410 (1994);
State v. Lentz, 70 Ohio St. 3d 527 (1994); In re T.L., 2014-0hio-1840, ^ 16, 2014 Ohio App.

7

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 8 of 39 PAGEID #: 2336

LEXIS 1804 (8th App. Dist 2014).
In response to Ground Five, ineffective assistance of trial counsel, the Warden notes that
Hawkins preserved for review five alleged instances, but notes that he also asserts that his trial
attorney “failed to object to court’s violations of state statutes and rules of evidence” and “failed
to object to many instances of prosecutorial misconduct.” (Return, ECF No. 11, PagelD 2267).
These claims are unspecific as to particular occasions of alleged trial counsel omissions. More
importantly, the Warden notes that all of these omissions would have been apparent in the direct
appeal record, but were not raised in that proceeding. Under those circumstances, the claims are
barred by Ohio’s criminal res judicata doctrine.
In his Eighth Ground for Relief, Hawkins claims he received ineffective assistance of
appellate counsel when his direct appeal attorney failed to raise a number of meritorious
assignments of error on direct appeal. The Warden asserts these claims are barred by Hawkins’
procedural default in failing to raise them in the correct manner under Ohio law, that is, by
including them in a properly filed application to reopen the direct appeal under Ohio R. App. P.
26(B).
The Warden asserts that Hawkins’ failures, which the First District Court of Appeals held
against him, were in filing in an untimely manner, exceeding the ten-page limit established in the
Rule, and failing to attach relevant portions of the record (Return, ECF No. 11, PagelD 2282-83).
Furthermore, after that adverse decision, Hawkins failed to timely appeal to the Supreme Court of
Ohio. Id. at PagelD 2284.
As excusing cause, Hawkins claims the Clerk of Courts “filed with a false cover page on
top of Petitioner’s actual cover page.” (Reply, ECF No. 18, PagelD 2322, asking the Court to
compare ECF No. 10, PagelD 493 with PagelD 532.) “Additionally, the Clerk jumbled the pages

8

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 9 of 39 PAGEID #: 2337

of Petitioner's Application. (Doc. 10, PagelD here listed in the order originally intended to have
appeared: 532-44,498-500,497,494-96, 502-15, 549, 551-74, 545-48, 516-20, 524, 521-22, 52729, 501,531.” Id.
■ On August 15, 2018, the Second District Court of Appeals had before it Hawkins’ delayed
application for reopening which he had filed on July 11, 2018. State v. Hawkins, Appellate Case
No. 27019 (State Court Record, ECF No. 10-1, PagelD 634 et seq.). In it the court noted that its
decision on direct appeal affirming the conviction had been entered March 9, 2018. Id. at ECF
No. 637. The court found Hawkins had filed a document labeled “Reply” in Appellate Case No.
26962 on June 11, 2018, and noted that that appellate case had been dismissed for lack of
jurisdiction. Id.
The referenced document appears in the State Court Record at Ex. 46, PagelD 493-97 and
bears Appellate Case No. CA 026962 in what appears to be Hawkins’ handwriting. It appears that
the pages were misordered in filing (assuming they appear in the State Court Record as they appear
in the files of the Montgomery County Clerk of Courts) because PagelD 532, which appears to be
a title page for Hawkins’ Application for Reopening, bears no date stamp from the Clerk.
Ordinarily a Clerk’s date stamp would be on the first page. Here the Court of Appeals Clerk’s
date stamp appears on PagelD 493, a page Hawkins labeled “Reply.”
However that misordering came about, it does not provide excusing cause. The Second
District denied the Application not because it was not in order, but because it was not timely.
Hawkins told the court of appeals he was late because of lack of funds, but the court rejected that
excuse, considering “the many documents he has had the ability, and has chosen, to file.” (Opinion,
State Court Record, ECF No. 10-1, PagelD 639). It also held against him the fact that he had filed
in excess of ten pages and had failed to attach the required portions of the record. As noted by

9

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 10 of 39 PAGEID #: 2338

Respondent, Ohio has a legitimate interest independent of federal law in having claims of
ineffective assistance of appellate counsel presented in an orderly fashion that permits appropriate
consideration. Aside from the prolixity of the filing, failure to timely file a 26(B) application has
been held by the Sixth Circuit to be an adequate and independent ground of state decision. Hoffner
v. Bradshaw, 622 F.3d 487, 504-505 (6th Cir. 2010).
Separate and apart from the deficiencies in filing the 26(B) application, Hawkins also
defaulted his ineffective assistance of appellate counsel claims by never appealing to the Supreme
Court of Ohio from the Second District’s denial. Here again Hawkins blames that failure on the
clerk’s misordering (Reply, ECF No. 18, PagelD 2323). He attaches a document labeled “Notice
of Delayed Appeal of Appellant Brian Hawkins” which shows it was received by the Clerk of the
Supreme Court of Ohio on October 16, 2018. (State Court Record, ECF No. 18, PagelD 2326.)
He also attached a document labeled “Notice of Appeal” which bears “received stamps of
September 27, 2018, and October 16, 2018. Id. at PagelD 2327. He attaches no correspondence from the Supreme Court Clerk explaining why neither of these documents was filed, but slate&.inhis Reply that it is because the Clerk of the Supreme Court “is required to refuse to file an [sic]
delayed appeal of an [sic] 26(B) Application for reopening . . . which is what the Clerk did.
(Reply, ECF No. 18, PagelD 2323.) Failure to file an appeal to the Supreme Court of Ohio from
an adverse ruling of a court of appeals within forty-five days is an adequate and independent state
ground of decision. Bonilla v. Hurley, 370 F.3d 494,497 (6th Cir. 2004).
Therefore, the unspecific claims of ineffective assistance of trial counsel in Ground Five
and all of the claims of ineffective assistance of appellate counsel in Ground Eight are procedurally
defaulted and should be dismissed on that basis.

10

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 11 of 39 PAGEID #: 2339

Ground One: Pre-Indictment Delay

The offense in suit happened in July 2002 and Hawkins was not indicted until May 2015.
Claiming that this delay deprived him of his rights under the Due Process Clause of the Fourteenth
Amendment, Hawkins filed a pre-trial motion to dismiss on that basis. Having been unsuccessful
in the state courts, he reiterates that claim in his First Ground for Relief. The Warden concedes
the claim is preserved for merits review here and contends the Second District’s decision is entitled
to deference under the Antiterrorism and Effective Death Penalty Act of 1996 (Pub. L. No 104132, 110 Stat. 1214)(the "AEDPA").
When a state court decides on the merits a federal constitutional claim later presented to a
federal habeas court, the federal court must defer to the state court decision unless that decision is
contrary to or an objectively unreasonable application of clearly established precedent of the
United States Supreme Court. 28 U.S.C. § 2254(d)(1); Harrington v. Richter, 562 U.S. 86, 100
(2011); Brown v. Payton, 544 U.S. 133, 140 (2005); Bell v. Cone, 535 U.S. 685, 693-94 (2002);
Williams (Terry) v. Taylor, 529 U.S. 362, 379 (2000). Deference is also due under 28 U.S.C. §
2254(d)(2) unless the state court decision was based on an unreasonable determination of the facts
in light of the evidence presented in the state court proceedings. In habeas it is the last reasoned
state court judgment which must be reviewed. Y1st v. Nunnemaker, 501 U.S. 797, 803 (1991).
Hawkins raised the pre-indictment delay as his first assignment of error on appeal and the
Second District decided it as follows:
[*P7] Hawkins’ First Assignment of Error states that:
The Trial Court Erred in Overruling Mr. Hawkins' Motion
to Dismiss, as the Thirteen Year Pre-Indictment Delay
Caused Actual Prejudice to His Right to a Fair Trial, Thus
Violating His Due Process Rights.
11

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 12 of 39 PAGEID #: 2340

[*P8] Under this assignment of error, Hawkins contends that he
suffered actual prejudice due to a delay of nearly 13 years between
the alleged crime and the filing of the indictment. Hawkins' claim of
prejudice is based on the fact that the only two persons who could
potentially corroborate what happened on the night in question are
now deceased.
[*P9] "An unjustifiable delay between the commission of an offense
and a defendant's indictment therefor, which results in actual
prejudice to the defendant, is a violation of the right to due process
of law under Section 16, Article I of the Ohio Constitution and the
Fifth and Fourteenth Amendments to the United States
Constitution." State v. Luck, 15 Ohio St. 3d 150, 15 Ohio B. 296,
472 N.E.2d 1097 (1984), paragraph two of the syllabus. "Once a
defendant presents evidence of actual prejudice, the burden shifts to
the state to produce evidence of a justifiable reason for the delay."
(Citations omitted.) State v. Jones, 148 Ohio St. 3d 167,2016-Ohio5105,69 N.E.3d 688,U 13.
[*P10] Decisions on "actual prejudice" involve "’a delicate
judgment based on the circumstances of each case.’" State v. Walls,
96 Ohio St. 3d 437, 2002-0hio-5059, 775 N.E.2d 829, If 52, quoting
United States v. Marion, 404 U.S. 307, 325, 92 S.Ct. 455, 30
L.Ed.2d 468 (1971). To make this assessment, "courts are to
consider the evidence as it exists when the indictment is filed and
the prejudice the defendant will suffer at trial due to the delay."
Walls at U 52, citing Luck at 154. (Other citation omitted.) However,
"speculative prejudice does not satisfy the defendant's burden."
Jones at 1f 20, citing Luck at If 56. (Other citation omitted.)
[*P11] In the case before us, the trial court heard from the following
witnesses at the evidentiary hearings in connection with Hawkins’
motion to dismiss: Brian Hawkins; Wayne Miller, Hawkins’ private
investigator; Carol Ewing, a retired detective with the Dayton Police
Department ("DPD"); Lindsey Dulaney, a current detective with the
DPD Special Victims' Unit ("SVU"); Gary Ware, an investigator
with the Montgomery County Prosecutor's Office; and Justin Hayes,
a training detective for the DPD SVU. The testimony of these
individuals revealed the following factual background.
[*P12] In July 2002, Ewing was a detective assigned to the DPD
sexual assault child endangerment unit. Ewing was assigned a case
involving A.J., who had allegedly been raped in the early morning
hours of July 30,2002, while she was a runaway from a foster home.
The rape occurred outdoors behind the Wesley Center, which was
12

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 13 of 39 PAGEID #: 2341

located on Delphos Avenue, in Dayton, Ohio. At the time, A.J. was
fifteen years old.
[*P13] After the alleged rape, A.J. ran to a nearby Burger King,
which was located a few blocks from the Wesley Center, and
pounded on the restaurant's door. A security guard answered and
called the police, who transported A.J. to Dayton Children's
Hospital, where a rape kit was done. The rape kit was then sent to
the Miami Valley Regional Crime Lab ("MVRCL") for processing.
[*P14] Originally, based on information as to the assailant's alleged
nickname of "Twin," Ewing put together two photospreads, but A.J.
did not pick out either of the suspected individuals. On August 6,
2002, A.J. provided Ewing with Brian Hawkins’ name, which A.J.
had obtained from friends. Ewing compiled another photospread,
and on August 14, 2002, A.J. identified Hawkins as the person who
had committed the rape.
[*P15] Ewing interviewed Hawkins in his home on October 29,
2002, because he had been recently shot and could not walk. The
interview was not recorded. Ewing would have noted in her report
if Hawkins were heavily sedated or under the influence during the
interview. She did not make such a notation.
[*P16] Ewing told Hawkins the date of the alleged offense, and he
said he thought he might have been in the hospital at the time. Ewing
later followed up and learned that Hawkins had been in the hospital
on August 11, 2002, which was about a week and a half after the
alleged rape.
[*P17] Ewing asked Hawkins if he knew someone with A.J.'s name,
and he said he did not. He stated that he did not know A.J., that he
would not have sex with a minor, and that he would not have sex
outside. Hawkins did not provide Ewing with the names of any
witnesses or an alibi. If Hawkins had given Ewing the names of
witnesses, she would have followed up.
|*P18] Hawkins recalled talking to a detective in October 2002. He
stated that he had just gotten shot and was sedated. Although he
could not recall what the detective said, he also testified that she
talked about a knife, which "threw" him off. He said he thought theyy
had the wrong person because he had never pulled a knife on
anyone; The police did not show him any pictures of the victim. He
also denied that he had said he would not have sex outside, as he had
done that plenty of times. He claimed Ewing had lied in her report.

13

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 14 of 39 PAGEID #: 2342

[*P19] In November 2002, Ewing was injured and her last day oft
work was February 2, 2004. During the interim, she had two
surgeries and at some point was on restricted duty until she retired.
She could not recall specific dates, other than that she had her first
surgery in July 2003. In February or March 2003, Ewing received
results back from MVRCL, indicating the presence of sperm in the
rape kit. Ewing then obtained a court order in October 2003 for a
buccal swab from Hawkins. At that point, Ewing was on restricted
duty, and another detective obtained the sample from Hawkins.
[*P2G] DPD did not receive the results from the DNA test until
March 2004, which was after Ewing retired. Hawkins' DNA was a
match, and there would have been sufficient cause at that time for
the police to present the case to the prosecutor’s office.
[*P21] Ewing's notes on the case, including the photo spread, were
kept in a packet, which was the official police file. There would have
been a notation on the front concerning whether the case was closed
or open. Ewing also kept her pending cases in a certain file cabinet.
She did not know what happened to the case files after she left the
DPD, and she did not recall if she specifically told someone that
there were pending cases in the file cabinet.
[*P22] Hawkins continued to reside in the Dayton area and did not
move out of state between 2002 and 2015. Nothing more was done
on the case until January 2015, when Detective Dulaney received a
phone call from the Miami County Prosecutor’s Office, indicating
that the office had received a CODIS hit or DNA match on a case
that was an investigation in the city of Dayton. The prosecutor sent
Dulaney a copy of the 2004 lab report. Dulaney pulled the police
report and saw that A.J.'s case had never been presented to the
Montgomery County Prosecutor's Office. After the case was
assigned to her, Dulaney located A.J., and spoke with her. Dulaney
also attempted to find Hawkins to obtain his side of the story, but
could not locate him at the time.
[*P23] Dulaney was never able to locate Ewing's packet, which
contained the photo spread and Ewing's notes. However, any notes
that Ewing took and anything she did during her investigation would
have been put into a police report. Dulaney was able to obtain a copy
of the police report, because that was stored electronically. The
police were also able to locate the following evidence: the 2002 rape
kit, which was stored at the old Montgomery County Jail; Hawkins'
buccal swab, which was still at MVRCL; and A.J.'s clothing, which
was still intact. In addition, DPD was able to locate the following
witnesses: the MVRCL employee who had processed the rape kit;
14

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 15 of 39 PAGEID #: 2343

the doctor and nurse who had collected the rape kit and who were
still working at Dayton Children's Hospital; the Burger King
security guard, who recalled speaking to A.J.; and the DPD officer
who had responded to the call from the Burger King. This officer
had retired from the DPD, but recalled the incident.
[*P24] -After being unable to find Hawkins, Detective Dulaney
entered a suspect locator into the police system, which meant that if
police came into contact with Hawkins, he would be told that
Dulaney wished to speak with him. After the locator was in the
system for a time with no success, the prosecutor went to a grand
jury and obtained a warrant for Hawkins' arrest.
[*P25] In May 2015, Dulaney was able to interview Hawkins. At
the time, he was in jail and was transported to the Safety Building
for an interview. Hawkins was told that he was there for an interview
in connection with a rape investigation, and after being informed of
his Miranda rights, agreed to speak with the police.
[*P26] Dulaney told Hawkins about the allegations, and Hawkins
said it never happened and that he did not know A.J. Although
Dulaney showed him photos of A.J. — one photo was older, and the
other was recent — Hawkins still did not recall knowing A.J. During
the interview, Hawkins did not give Dulaney the names or addresses
of any witnesses. If he had given her names, she would have tried to
locate the witnesses.
[*P27] At the pre-indictment hearing, Hawkins testified that he had
reviewed the police report as part of discovery and did not deny
having sex with A.J. He maintained that they agreed to have sexual
relations and the activity was not due to force.
[*P28] According to Hawkins, he met A.J. around 3:00 a.m. on July
30, 2002, when he was leaving a "bootleg joint" on Shoop Avenue
in Dayton, Ohio. The bootleg joint was an after-hours place where
people came to gamble, drink, and meet women. Hawkins stated that
the bootleg joint had two security guards who checked identification
and patted people down. They also had a metal detector, and would
not let people in who had weapons like knives. In addition, no one
under 18 years of age was allowed inside. Hawkins identified three
people as potential witnesses: Bobby Cartwright, who worked as a
security guard, Kevin Cartwright, who used to come to the bootleg
joint, and Jermaine Hunter, who was present in the yard of the
bootleg joint that night.

15

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Plied’ > 7/04/19 Page: 16 of 39 PAGEID #: 2344

[*P29] The Cartwrights were Hawkins' cousins, and could discuss
security, as well as the fact that underage persons were not allowed,
meaning that A.J. had lied about her age. Bobby was working that
night, but would not have seen Hawkins and A.J., because he was
inside. Jermaine Hunter was outside talking to AJ. when Hawkins
left the bootleg joint, and was close enough to hear conversation
between Hawkins and A.J. when she initially followed Hawkins
away from the bootleg joint. Hunter could also testify that A.J.
initiated contact with Hawkins. According to Hawkins, he had lost
contact with these individuals and had not seen them for a number
of years. He thought Hunter was in prison and had mental problems.
[*P30] Hawkins testified that when he left the bootleg joint, A.J.
followed him. He stated that at the time, he stayed at different
people's houses. Consequently, he and A.J. went to different
people's houses but no one was there. Hawkins described walking
to a house on Delphos Avenue, then to a house on Bedford Street,
back to the house on Delphos, and next to another house located at
Oakridge Drive and Tyson Avenue. On the way back from the last
location, A.J. propositioned Hawkins for sex the whole time.
[*P31] According to Hawkins, he and A.J. then had a sexual
encounter behind the Wesley Center. Afterward, they went to a
house on Upland Avenue, where Hawkins' friend, "Moochie," lived.
Hawkins did not know Moochie’s real name; everyone just called
him Moochie. When Hawkins and A.J. arrived at Moochie's house,
Hawkins told A.J. to stay outside, but she insisted on coming inside.
[*P32J Several people were at the house, including a woman named
Tony Ousley, who was the mother of Hawkins' friend, "Squiggy."
Hawkins and Squiggy had both grown up in the same neighborhood.
According to Hawkins, he told Ousley that he and A.J. had sex and
that A.J. was 18 years old. While they were there, Ousley spoke to
A.J., who verified that she and Hawkins had sex. When Hawkins
and A.J. left, Ousley pulled him to the side and said he needed to get
away from A.J. or he was going to get in trouble. Ousley specifically
stated that A.J. was lying about her age. When Hawkins found out
from Ousley that A.J. was too young, he walked with A.J. for a few
blocks and then handed her a couple of dollars. At that point, A.J.
became angry. Hawkins believed she was mad because she thought
she was going to stay with him the rest of the night.
[*P33] By the time of the pre-indictment hearing, Moochie's house
and the house where the bootleg joint was had been tom down.
Hawkins' investigator, Wayne Miller, found the last known address
of the Cartwrights, but was not able to actually locate them. He
16

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 17 of 39 PAGEID #: 2345

visited their last known address, but it looked vacant and vines were
growing from beside the house onto the front door. Miller did locate
Hunter, who was in a prison mental ward, and interviewed him.
When shown a picture of A.J., Hunter said he had never seen her;
he also said he could not recall ever visiting the bootleg joint on
Shoop Avenue.
[*P34] Miller additionally discovered that Squiggy had been
murdered in 2008 and that Tony Ousley passed away in 2011. At
the hearing, Hawkins testified that Moochie was also dead and that
he was not previously aware that Ousley had died. Hawkins said he
could, however, have located both Moochie and Ousley in the past.
[*P35] As was noted, after the court heard the evidence, it concluded
that Hawkins failed to prove actual, substantial prejudice. In
particular, the court noted that its evaluation hinged on Hawkins'
credibility, and that Hawkins was not credible.
[*P36] In contending that the trial court erred, Hawkins argues that
Ohio courts have not employed a credibility analysis in pre­
indictment delay cases. Hawkins further contends that the facts of
this case directly compare to those in [State v. Luck], 15 Ohio St. 3d
150, 15 Ohio B. 296,472 N.E.2d 1097 [(1984)], where the Supreme
Court of Ohio held that pre-indictment delay had prejudiced the
defendant. We disagree with both assertions.
[*P37] As a preliminary matter, Ohio appellate courts have held that
decisions on motions to dismiss for pre-indictment delay should be
reviewed on the following basis: legal issues are reviewed de novo;1
but "the court's findings of fact are afforded great deference."
(Citations omitted.) State v. Powell, 2016-0hio-1220, 61 N.E.3d
789, TJ 11 (8th Dist.). See also State v. Zimbeck, 195 Ohio App. 3d
729, 2011-Ohio-2171, 961 N.E.2d 1141, U 20 (6th Dist.); State v.
Winkle, 7th Dist. Mahoning No. 12 MA 162, 2014-Ohio-895,123;
State v. Cochenour, 4th Dist. Ross No. 98CA2440, 1999 Ohio App.
LEXIS 1054, 1999 WL 152127, *1 (Mar. 8, 1999).
[*P38] We agree with these standards, which are consistent with
standards of review for other pretrial matters like suppression
motions. In suppression situations, trial courts hear evidence on
factual points and must necessarily make decisions on witness
credibility. See, e.g., State k Burnside, 100 Ohio St. 3d 152, 2003Ohio-5372, 797 N.E.2d 71, *\\ 8; State v. Brown, 2016-Ohio-4973, 67
N.E.3d 1278, 7 (2d Dist.). As these decisions note, trial courts "are
in the best position to resolve factual questions and evaluate the

17

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 18 of 39 PAGEID #: 2346

credibility of witnesses." Burnside at U 8, citing State v. Mills, 62
Ohio St.3d 357, 366, 582 N.E.2d 972 (1992).
[*P39] In Luck, the Supreme Court of Ohio considered whether the
defendant was prejudiced by a fifteen-year delay between the time
of a murder and her indictment for the murder. Luck, 15 Ohio St.3d
at 152, 472 N.E.2d 1097. The defendant, Katherine Luck, was one
of the suspects originally interviewed around the time of the crime.
However, after an initial investigation, the police could not gather
any new evidence and took no official action for about fifteen years.
Id. at 151. At that point, for reasons that were not clear in the record,
an indictment was obtained against Luck, and she was arrested. Id.
[*P40] While under arrest, Luck made a confession at the police
station, indicating that she had been physically attacked by the
decedent, who was then killed in the fight that ensued. Id_ at 157.
According to Luck's confession, another individual, who was her
acquaintance (and who had also been an original suspect) was
present at the time of the alleged murder. Id. She told the police that
this person, who was the only one who could help her, was dead. Id.
[*P41] After concluding that the confession had been illegally
obtained, the court found that defendant was "obviously prejudiced
by not being able to seek verification of her story from [the deceased
witness] and thereby establish mitigating factors or a defense to the
charge against her." Id. at 158. Finding both actual prejudice and an
unjustifiable delay by the State, the court affirmed the dismissal of
the murder charge. Id. at 159.
[*P42] Unlike the defendant in Luck, Hawkins never asserted^ either
when he was originally interviewed in 2002, or when he was
interviewed in 2015, that he.lnad consensual sex with A,J. and that
witnesses existed who could verify his story, instead, he denied that
he had been involved in any such incident. Consequently, Luck is
not directly comparable to the case before us.
[*P43] In State v. Dixon, 2015-Ohio-3144, 40 N.E.3d 601 (8th
Dist.), the State waited almost 20 years to indict a defendant for rape.
Id. at 2. After the trial court dismissed the charge due to pre­
indictment delay, the Eighth District Court of Appeals affirmed.
Notably, in that case, two parole revocation hearings were held in
1993, shortly after the victim told the police that the defendant had
raped her. At the parole revocation hearings, the defendant admitted
having sexual intercourse with the complainant, but claimed it was
consensual. ld_ at 1| 6. The defendant was sent back to prison for the
parole violation, but the State did not initiate any prosecution on the
18

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 19 of 39 PAGEID #: 2347

rape charge for almost 20 years, after the police "received a CODIS
[Combined DNA Index System] hit confirmation from the Federal
Bureau of Criminal Investigation that they had made a preliminary
association between a submitted rape kit and the Defendant." Id.
[*P44] Two witnesses who had testified at the parole revocation
hearings were unavailable, including the defendant's former
employer, who was deceased. Id. at K 9. This witness, Norman
Diamond, had testified at the revocation hearings that "he spoke
with the alleged victim after the incident and the victim told
Diamond that 'she had feelings for [Dixon]' and 'if she could not
have [Dixon], no one would.' Diamond further testified that the
alleged victim told him that the sexual encounter was 'mutual with
no force.'" Id.
[*P45] In concluding that the defendant had established actual
prejudice, the court commented that the case against the defendant
hinged on the victim's credibility. Id. at 30. The court further
observed that, the testimony of the deceased witness directly
supported tire defendant's assertion that the sex was consensual, and
also undermined the victim's testimony. Id.
[*P46] Again, these facts are far different than those involved in the
case before us. Hawkins never asserted that the sex was consensual
or that witnesses existed.
[*P47] Hawkins also relies on State v. Jones, 148 Ohio St. 3d 167,
2016-0hio-5105, 69 N.E.3d 688, in which the court stated that a
defendant's "inability to articulate specifically what [a witness's]
testimony would have been does not render his claim of prejudice
fatally speculative," as the court has "held that a defendant may
establish actual prejudice where he or she is unable to seek
verification of his or her story from a deceased witness." Id. at 28,
citing Luck, 15 Ohio St.3d at 157, 472 N.E.2d 1097. However, by
making these comments, the court was not advancing a novel
proposition of law; it was discussing its prior decision m Luck.
Moreover, the issue in the case before us is not Hawkins' inability’
to articulate the content of a deceased witness's testimony;
relevant matter is that the trial court did not find Hawkins credible.
As was noted, the trial court was in the best position to assess
credibility, and we defer to the court's factual findings.
[*P48] As a final matter, Hawkins contends that the State's pre­
indictment delay was not justifiable, as the police simply allowed
the case to "slip through the cracks." Because Hawkins failed to
meet his initial burden of proving actual prejudice, we need not
19

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 20 of 39 PAGEID #: 2348

consider this issue. See, e.g., Jones at ^ 13, citing State v. Whiting,
84 Ohio St. 3d 215, 217, 1998-Ohio-575, 702 N.E.2d 1199 (1998),
and State v. Adams, 144 Ohio St. 3d 429, 2015-Ohio-3954, 45
N.E.3d 127, f 99.
[*P49] Accordingly, the trial court did not err when it concluded
that Hawkins failed to establish actual prejudice. The First
Assignment of Error, therefore, is overruled.
State v. Hawkins, 2018-Ohio-867.
In his Reply, Hawkins raises a new argument about pre-indictment delay, to wit, that
prosecution was barred by the statute of limitations. He asserts that the rape statute was amended
effective July 16, 2015, to allow prosecution within twenty-five years after the offense or five
years after a DNA match is made {ECF No. 18, PagelD 2309, citing Ohio Revised Code §
2901.13(D)(1) and (2). He claims that both his May 11, 2015, and July 22, 2015, indictments are
un timely under Ohio Revised Code §2901.13(D)(2) because they came more than five years after
the DNA match in March 2004. This argument misreads Ohio Revised Code § 2903.13(D)(2)
which, in a case in which the DNA match is made within twenty-five years of the offense,
prosecution “may be commenced within the longer ot twenty-five years after the offense is
committed or five years after the determination is complete.” The offense here was committed in
July 2002 and twenty-five years from that date will not occur until July 2027. In any event this
statute of limitations claim is procedurally defaulted because it was not presented to the state
courts.
Other than his statute of limitations claim, Hawkins offers no criticism of the Second
District’s decision on his pre-indictment delay claim. Because the court of appeals recognized the
controlling Supreme Court precedent and reasonably applied it to the facts at hand its decision is
entitled to deference under 28 U.S.C. § 2254(d)(1). It was correct in rejecting Hawkins’ claim that
credibility of witnesses is not part of the appropriate standard for review. Anytime a trial court

20

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 21 of 39 PAGEID #: 2349

must decide a factual question on the basis of oral testimony, the credibility of the witnesses who
testify is necessarily a component, part of the decision and is entitled to deference by reviewing
state appellate courts and federal habeas courts.
Hawkins First Ground for Relief should be dismissed on the merits.

Ground Four: Conviction Based On Insufficient Evidence

In his Fourth Ground for Relief, Hawkins claims his conviction is based on insufficient
evidence.
An allegation that a verdict was entered upon insufficient evidence states a claim under the
Due Process Clause of the Fourteenth Amendment to the United States Constitution. Jackson v.
Virginia, 443 U.S. 307 (1979); In re Winship, 397 U.S. 358 (1970); Johnson v. Coyle, 200 F.3d
987, 991 (6th Cir. 2000); Bagby v. Sowders, 894 F.2d 792, 794 (6th Cir. 1990)(e« banc). In order
for a conviction to be constitutionally sound, every element of the crime must be proved beyond a
reasonable doubt. In re Winship, 397 U.S. at 364.
[T]he relevant question is whether, after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a
reasonable doubt.... This familiar standard gives full play to the
responsibility of the trier of fact fairly to resolve conflicts in the
testimony, to weigh the evidence and to draw reasonable inferences
from basic facts to ultimate facts.
Jackson, 443 U.S. at 319; United States v. Paige, 470 F.3d 603, 608 (6th Cir. 2006); United States
v. Somerset, 2007 U.S. Dist. LEXIS 76699 (S.D. Ohio 2007). This rule was recognized in Ohio
law at State v. Jenks, 61 Ohio St. 3d 259 (1991)(paragraph two of the syllabus), superseded on
other grounds by state constitutional amendment as stated in State v. Smith, 80 Ohio St.3d 89, 102

21

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 22 of 39 PAGEID #: 2350

n.4 (1997). Of course, it is state law which determines the elements of offenses; but once the state
has adopted the elements, it must then prove each of them beyond a reasonable doubt. In re
Winship, supra.
In cases such as Petitioner’s challenging the sufficiency of the evidence and filed after
enactment of the AEDPA, two levels of deference to state decisions are required:
In an appeal from a denial of habeas relief, in which a petitioner
challenges the constitutional sufficiency of the evidence used to
convict him, we are thus bound by two layers of deference to groups
who might view facts differently than we would. First, as in all
sufficiency-of-the-evidence challenges, we must determine
whether, viewing the trial testimony and exhibits in the light most
favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.
See Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979). In doing so, we do not reweigh the evidence,
re-evaluate the credibility of witnesses, or substitute our judgment
for that of the jury. See United States v. Hilliard, 11 F.3d 618, 620
(6th Cir. 1993). Thus, even though we might have not voted to
convict a defendant had we participated in jury deliberations, we
must uphold the jury verdict if any rational trier of fact could have
found the defendant guilty after resolving all disputes in favor of the
prosecution. Second, even were we to conclude that a rational trier
of fact could not have found a petitioner guilty beyond a reasonable
doubt, on habeas review, we must still defer to the state appellate
court's sufficiency determination as long as it is not unreasonable.
See 28 U.S.C. § 2254(d)(2).
Brown v. KonteK 567 F.3d 191,205 (6lh Cir. 2009). In a sufficiency of the evidence habeas corpus
case, deference should be given to the trier-of-fact's verdict under Jackson and then to the appellate
court’s consideration of that verdict, as commanded by AEDPA. Tucker v. Palmer, 541 F.3d 652
(6th Cir. 2008); accord Davis v. Lafler, 658 F.3d 525, 531 (6th Cir. 2011)(e* banc); Parker v.
Matthews, 567 U.S. 37,43 (2012). Notably, “a court may sustain a conviction based upon nothing
more than circumstantial evidence.” Stewart v. Wolfenbarger, 595 F.3d 647, 656 (6th Cir. 2010).
We have made clear that Jackson claims face a high bar in federal
habeas proceedings because they are subject to two layers ofjudicial
22

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 23 of 39 PAGEID #: 2351

deference. First, on direct appeal, "it is the responsibility of the jury
— not the court -- to decide what conclusions should be drawn from
evidence admitted at trial. A reviewing court may set aside the jury's
verdict on the ground of insufficient evidence only if no rational trier
of fact could have agreed with the jury." Cavazos v. Smith, 565 U.
S. 1, [2] (2011) (per curiam). And second, on habeas review, "a
federal court may not overturn a state court decision rejecting a
sufficiency of the evidence challenge simply because the federal
court disagrees with the state court. The federal court instead may
do so only if the state court decision was 'objectively unreasonable.'"
Ibid, (quoting Renico v. Lett, 559 U. S. [766, 773,] (2010)).
Coleman v. Johnson, 566 U.S. 650, 651, (2012){per cwnam)(parallel citations omitted); Parker v.
Matthews, 567 U.S. 37, 43 (2012) (per curiam). The federal courts do not make credibility
determinations in reviewing sufficiency of the evidence claims. Brooks v. Tennessee, 626 F.3d
878, 887 (6th Cir. 2010).
The Warden defends this Ground on the merits, asserting that the Second District’s
decision is not an objectively unreasonable application of Jackson (Return, ECF No. 11, PagelD
2259-66).
The Second District discussed Hawkins’ manifest weight and sufficiency of the evidence
claims together, writing:
III. Manifest Weight and Sufficiency of the Evidence
[*P50] Hawkins has raised issues pertaining to manifest weight and
sufficiency of the evidence. Because these issues are related, we will
consider them together. Hawkins' Second Assignment of Error
states that:
The Jury Erred in Finding Mr. Hawkins Guilty of Rape and
Kidnap as the Convictions Are Against the Manifest
Weight of the Evidence.
[*P51] Hawkins' Fourth (and First Supplemental) Assignment of
Error states as follows:
Hawkins’ Convictions Were Based on Insufficient
Evidence.
23

Case: 3:19-cv~00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 24 of 39 PAGEID #: 2352

[*P52] Under the manifest weight assignment of error, Hawkins
argues that the physical evidence supports his version of events, and
that A.J. made multiple inconsistent statements. Concerning
sufficiency, Hawkins contends that the only evidence of a forcible
encounter came from A.J., who had a revenge motive to lie, as she
was bitter because she did not succeed in her efforts to find a place
to stay and to obtain money.
[*P53] "A sufficiency of the evidence argument disputes whether
the State has presented adequate evidence on each element of the
offense to allow the case to go to the jury or sustain the verdict as a
matter of law." (Citation omitted.) State v. Wilson, 2d Dist.
Montgomery No. 22581, 2009-Ohio-525, % 10. In such situations,
we apply the test from State v. Jenks, 61 Ohio St.3d 259, 574 N.E.2d
492 (1991), which states that
An appellate court's function when reviewing the
sufficiency of the evidence to support a criminal conviction
is to examine the evidence admitted at trial to determine
whether such evidence, if believed, would convince the
average mind of the defendant's guilt beyond a reasonable
doubt. The relevant inquiry is whether, after viewing the
evidence in a light most favorable to the prosecution, any
rational trier of fact could have found the essential
elements of the crime proven beyond a reasonable doubt.
(Citation omitted). H at paragraph two of the syllabus.
[*P54] In contrast,"[a] weight of the evidence argument challenges
the believability of the evidence and asks which of the competing
inferences suggested by the evidence is more believable or
persuasive." (Citation omitted.) Wilson at 12. In this situation, a
court reviews '"the entire record, weighs the evidence and all
reasonable inferences, considers the credibility of witnesses and
determines whether in resolving conflicts in the evidence, the jury
clearly lost its way and created such a manifest miscarriage ofjustice
that the conviction must be reversed and a new trial ordered. The
discretionary power to grant a new trial should be exercised only in
the exceptional case in which the evidence weighs heavily against
the conviction."' State v. Thompkins, 78 Ohio St.3d 380, 387, 1997Ohio-52, 678 N.E.2d 541 (1997), quoting State v. Martin, 20 Ohio
App.3d 172, 175, 20 Ohio B. 215, 485 N.E.2d 717 (1st Dist. 1983).
"The fact that the evidence is subject to different interpretations does
not render the conviction against the manifest weight of the

24

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 25 of 39 PAGEID #: 2353

evidence." State v. Adams, 2d Dist. Greene Nos. 2013-CA-61, 2013CA-62, 2014-Ohio-3432, ^ 24, citing Wilson at 14.
[*P55] "Although sufficiency and manifest weight are different
legal concepts, manifest weight may subsume sufficiency in
conducting the analysis; that is, a finding that a conviction is
supported by the manifest weight of the evidence necessarily
includes a finding of sufficiency." (Citations omitted.) State v.
McCrary, 10th Dist. Franklin No. 10AP-881,201 l-Ohio-31614 11.
Accord State v. Winbush, 2017-Ohio-696, 85 N.E.3d 501,58 (2d
Dist.) As a result, "a determination that a conviction is supported by
the weight of the evidence will also be dispositive of the issue of
sufficiency." (Citations omitted.) State v. Braxton, 10th Dist.
Franklin No. 04AP-725, 2005-0hio-2198,U 15.
[*P56] Furthermore, since a factfinder "has the opportunity to see
and hear the witnesses, the cautious exercise of the discretionary
power of a court of appeals to find that a judgment is against the
manifest weight of the evidence requires that substantial deference
be extended to the factfinder's determinations of credibility. The
decision whether, and to what extent, to credit the testimony of
particular witnesses is within the peculiar competence of the
factfinder, who has seen and heard the witness." State v. Lawson, 2d
Dist. Montgomery No. 16288, 1997 Ohio App. LEXIS 3709, 1997
WL 476684, *4 (Aug. 22, 1997).
[*P57] In contrast, "the decision as to which of several competing
inferences, suggested by the evidence in the record, should be
preferred, is a matter in which an appellate judge is at least equally
qualified, by reason and experience, to venture an opinion." Id.
"Consequently, we defer more to decisions on what testimony
should be credited, than we do to decisions on the logical force to
be assigned to inferences suggested by evidence, no matter how
persuasive the evidence may be." State v. Brooks, 2d Dist.
Montgomery No. 21531, 2007-0hio-1029, 28, citing Lawson,
1997 Ohio App. LEXIS 3709, [WL] at *4.
[*P58] After reviewing the record, we conclude that the judgment
of the trial court is not against the manifest weight of the evidence,
and, therefore, is also supported by sufficient evidence.
[*P59] Hawkins was indicted on one count of rape in violation of
R.C. 2907.02(A)(2). This statute provides, in pertinent part, that
"[n]o person shall engage in sexual conduct with another when the
offender purposely compels the other person to submit by force or

25

Case: 3:19-cv-00072-TMR-MRM Doc it: 19 Filed: 12/04/19 Page: 26 of 39 PAGEID #: 2354

threat of force." "Sexual conduct" includes, among other things,
"vaginal intercourse between a male and female." R.C. 2907.01(A).
[*P60] Hawkins was also charged with kidnapping in violation of
R.C. 2905.01(A)(4). This statute provides, in pertinent part, that:
No person, by force, threat, or deception, or, in the case of
a victim under the age of thirteen or mentally incompetent,
by any means, shall remove another from the place where
the other person is found or restrain the liberty of the other
person, for any of the following purposes:
* * *

(4) To engage in sexual activity, as defined in section
2907.01 of the Revised Code, with the victim against the
victim's will * * *.
[*P61] As was noted, the victim, A.J., was 15 years old at the time
of the alleged offenses, and the trial did not occur until more than 13
years later. A.J. did not recall every detail, but did specifically recall
encountering Hawkins in the early morning hours of July 30, 2002,
near Shoop Avenue, and walking with him for a period of time,
during which he told her that he had a place for her to stay and that
he wanted to feed her and treat her like his daughter. However, when
they were on a sidewalk that ran behind the Wesley Center, Hawkins
became physical, threw A.J. on the ground, and raped her, by
inserting his penis into her vagina. He also held a knife to her neck
and restrained her.
[*P62] After this occurred, A.J. ran to a nearby Burger King for
help. Her testimony in this regard was corroborated by the security
guard, who stated that a distraught female came to the restaurant
around 4:00 a.m. on July 30, 2002, and asked for help. According to
the guard, the woman was crying and asked him to call the police,
which he did.
[*P63] The responding officer, Jeffrey Huber, testified that when he
arrived at Burger King, A.J. was crying and visibly shaking, and her
hair was out of order. She reported that she had come in contact with
a man on Shoop Avenue, and had walked with him for a while,
during which time he said he would take care of her and get her food.
However, the man subsequently grabbed her while they were behind
the Wesley Center and told her to pull her pants down. When she
resisted, he pulled out a knife and threatened her. He then raped her.
Huber took A.J. back to the Wesley Center, and she pointed out the
area where the rape had occurred. Huber noticed grass in A.J.'s hair
and on her clothing, and he could tell that someone had been on the
26

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 27 of 39 PAGEID #: 2355

ground in the area that she pointed out. He then took A J. to Dayton
Children's Hospital.
[*P64] The nurse who examined A.J. at the hospital testified about
a history that A.J. had given her concerning the incident. This
history was similar to the facts noted above. The nurse further stated
that A.J. reported pain in her pelvic bone. In addition, the doctor
who conducted A.J.'s physical examination observed swelling in the
vaginal area to the extent that he was unable to insert a small
speculum in that area. The doctor testified that he found evidence of
sexual activity consistent with penile vaginal rape.
[*P65] Detective Ewing, who first worked on the case, met with A.J.
the day after the incident. Ewing also recounted various details of
A.J.'s story that were consistent with A.J.'s statements to the other
witnesses and with A.J.'s trial testimony. Ewing additionally
testified about details of her interview with Hawkins in October
2002. At that time, Hawkins stated that he did not know A.J., would
never have sex with a minor, and would not have sex outside.
Transcript of Proceedings (Jury Trial), Vol. I, p. 237.
l*P66] In contrast to this evidence, Hawkins testified that as he had
during the pre-indictment hearing, which was that he met A.J.
outside the bootleg joint and that they walked to various locations in
the area. Hawkins described A.J. basically as following him
throughout this time, persisting when he walked away from her, and
eventually initiating and consenting to have sexual intercourse. His
implication was that A.J. did so in order to obtain money and shelter.
He also believed that A.J. accused him of rape because she was
angry when he left .her after they had sex.
f*P67] There were a few inconsistencies in A.J.'s testimony, such as
whether Hawkins held the knife to the left or to the right side of her
neck, or whether the knife was closed or open. This would not be
surprising, given A.J.'s age at the time of the incident, and the lapse
of time between the incident and her testimony. However,
substantial evidence supported her account.
[*P68] There were inconsistencies in Hawkins' account as well. For
example, Hawkins testified at trial that he had introduced himself by
name to A.J. outside the bootleg joint, and that she had given him
her name as well. He also indicated that he later found out she was
underage and that they had consensual sex outside the Wesley
Center. This testimony was inconsistent with statements Hawkins
made to police in 2002, when he denied knowing A.J., and said he
would not have sex either with a minor or outside. It is also
27

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 28 of 39 PAGEID #: 2356

inconsistent with his statement to police in 2015, when he denied
ever having seen A.J., despite being shown pictures of her taken in
2004, a few years after the incident.
[*P69] "A defendant is not entitled to a reversal on manifest weight
grounds merely because inconsistent evidence was presented at trial.
* **
The trier of fact is free to believe or disbelieve all or any of the
testimony." (Citations omitted.) State v. Crosby, 10th Dist. Franklin
No. 06AP-655, 2008-0hio-145, f 78. The trier of facts was in the
best position to evaluate witness credibility and to decide the weight
to give the testimony. Lawson, 2d Dist. Montgomery No. 16288,
1997 Ohio App. LEXIS 3709, 1997 WL 476684, at *4. Clearly, the
jury believed A.J. and the ample evidence that supported her
testimony.
[*P70] Because the judgment was not against the manifest weight
of the evidence, it was also supported by sufficient evidence.
Consequently, the Second and Fourth Assignments of Error are
without merit and are overruled.
State v. Hawkins, 2018-Ohio-867.

In his Reply, Hawkins has little to say about the Fourth Ground for Relief. Basically he
reiterates his points about the inconsistencies in the victim’s testimony and her motive to lie
because she did not get the place to stay, some money, and something to eat which she had hoped
for. The jury heard those claims, but also heard the victim’s testimony and found it believable.
The testimony of a single victim is sufficient to support a conviction, and here many of the facts
the victim testified to were corroborated. Hawkins was unable to deny credibly that he had had
sexual intercourse with A.J. and the jury heard testimony of a contemporaneous medical
examination which concluded her vaginal condition was consistent with forcible rape. There was,
therefore, sufficient evidence to convict and the Fourth Ground for Relief should be dismissed.

28

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 29 of 39 PAGEID #: 2357

Ground Five: Ineffective Assistance of Trial Counsel

In his Fifth Ground for Relief, Hawkins asserts he received ineffective assistance of trial
counsel in a number of specific ways.1 The Warden concedes that the five specific sub-claims of
ineffective assistance of trial counsel raised on direct appeal have been preserved for habeas relief,
but argues the Second District’s decision is not an unreasonable application of the governing
federal standard for ineffective assistance of trial counsel set forth in Strickland v. Washington,
466 U.S. 668 (1984).
On Hawkins’ five specific claims, the Second District wrote:
[*P72] Hawkins’ Fifth (and Second Supplemental) Assignment of
Error states that:
Hawkins' Counsel Provided Constitutionally Ineffective
Assistance Under the Fifth, Sixth, and Fourteenth
Amendments of the United States Constitution and Article
I, Sections 10 and 16 of the Ohio Constitution.
[*P73] Under this assignment of error, Hawkins' first contention is
that trial counsel was ineffective because he failed to call A.J. as a
witness at the hearing on pre-indictment delay. According to
Hawkins, there is a reasonable probability that the court would have
granted his motion to dismiss the indictment if A.J. had been called
to testify. As support for this assertion, Hawkins recounts A.J.'s trial
testimony, in which she detailed walking around with Hawkins,
being forcibly thrown to the ground, and being raped at knifepoint.
Hawkins does not indicate how this testimony would have assisted
his motion for pre-indictment delay, other than observing that A.J.
remembered some things that happened to her, but did not remember
everything.
[*P74] "In order to prevail on a claim of ineffective assistance of
counsel, the defendant must show both deficient performance and
resulting prejudice." State v. Sosnoskie, 2d Dist. Montgomery No.
22713, 2009-Ohio-2327, 16, citing Strickland v. Washington, 466
U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). "Trial counsel is
! He also claims unspecific violations of his Sixth Amendment right and they have been recommended for dismissal
as proceduraliy defaulted above in the section of this Report under that title.

29

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 30 of 39 PAGEID #: 2358

entitled to a strong presumption that his conduct falls within the
wide range of effective assistance, and to show deficiency the
defendant must demonstrate that counsel’s representation fell below
rn objective standard of reasonableness." Id.
[*P75] Hawkins has failed to articulate how having A.J. testify at
the motion hearing would have assisted his claim of actual prejudice
in the pre-indictment delay, and we see nojjotential basis for finding
trial counsel deficient in this regard. In fact, to the extent that AJ.
failed to recall any events, it would have assisted Hawkins at trial in
defending against her claims, i.e., he could have challenged
inconsistencies or gaps in her testimony.
[*P76] Hawkins' second claim of ineffective assistance is based on
the fact that trial counsel requested a jury view. According to
Hawkins, many structures were tom down and he was prejudiced.
He does not suggest how he was prejudiced, and we see no potential
prejudice. Given Hawkins' detailed (and sometimes confusing)
description of routes he and A.J. took while they walked around, a
view of the area would have been helpful to the jury. Furthermore,
the State also requested a jury view, and the trial court would have
had discretion to grant a jury view. See, e.g., State v. Zaern, 32 Ohio
St.3d 56, 58, 512 N.E.2d 585 (1987).
[*P77] Hawkins- third contention is that trial counsel was ineffective
by failing to argue for admission of a social worker's commentary
from the rape kit, which could have been used to impeach A.J.’s
testimony. This evidence was contained in State’s Ex. 11R, and
included "references to sexual activity of A.J. and her promiscuity."
Transcript of Proceedings (Jury Trial), Vol. II, p. 332. According to
the record, this matter had been discussed prior to the start of trial,
and the court had informed defense counsel then that the testimony
was inadmissible based on the rape shield law. Id. at pp. 331-32.
During the discussion of this point, defense counsel stated that he
did not pursue the issue based on the court's mling. Id. at 332.
Nonetheless, the matter, in fact, was discussed in detail, and the trial
court specifically stated that the issue had been preserved for
appellate review. Id. at 332-33.
[*P78] The earlier discussion of this issue occurred in the context of
the renewal of Hawkins' motion to dismiss for pre-indictment delay.
Transcript of Trial Proceedings (Jury Trial), Vol. I, pp. 9-12. At that
point, Hawkins' counsel objected because he had not been able to
obtain records from Grandview Hospital concerning an assault,
perhaps sexual, of A.J. that had allegedly occurred a few weeks
before the July 30, 2002 incident. Grandview Hospital had
30

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 31 of 39 PAGEID #: 2359

destroyed these records after 10 years and they could not be
obtained. Defense counsel had learned of these records based on the
social worker’s note in the rape kit; the form also referred to
treatment for sexually-transmitted disease, but the context was not
clear. Id. atp. 11.
[*P79] The trial court stated that this did not affect its prior ruling
on pre-indictment delay for two reasons: (1) the defense had the
information in the rape kit, which was the central issue at trial; and
(2) the records would not have had any impact because there was no
indication that they would have led to any admissible evidence../*/,
atp. 11-12.
[*P80] R.C. 2907.02(D) provides that:
Evidence of specific instances of the victim's sexual
activity, opinion evidence of the victim's sexual activity,
and reputation evidence of the victim's sexual activity shall
not be admitted under this section unless it involves
evidence of the origin of semen, pregnancy, or disease; or
the victim's past sexual activity with the offender, and only
to the extent that the court finds that the evidence is
material to a fact at issue in the case and that its
inflammatory or prejudicial nature does not outweigh its
probative value.
[*P81] "Generally, the rape shield statute excludes evidence of the
victim's prior sexual conduct as a means to attack credibility." State
v. Core, 2d Dist. Montgomery No. 9976, 1987 Ohio App. LEXIS
7591, 1987 WL 12968, *4 (June 17, 1987), citing State v. Ferguson,
5 Ohio St.3d 160, 5 Ohio B. 380, 450 N.E.2d 265 (1983). In order
to avoid violation of the Confrontation Clause, the Supreme Court
of Ohio has used a balancing test to decide whether the evidence
may be admitted in certain limited situations. "The key to assessing
the probative value of the excluded evidence is its relevancy to thematters as proof of which it is offered." State v. Gardner, 59 Ohio
St.2d 14, 18,391 N.E.2d 337 (1979). In Gardner, the court rejected
the "assumption that prior unchastity with other individuals
indicates a likelihood of consent to the act in question with the
defendant." Id.
f*P82] "'Cases decided since Gardner * * * have established that in
order for the contested evidence to be admissible, it must be
submitted for a more important purpose than mere impeachment of
a witness's credibility."' State v. Hicks, 2d Dist. Montgomery No.
17730, 2000 Ohio App. LEXIS 2131, 2000 WL 646505, *4 (May
31

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 32 of 39 PAGEID #: 2360

19, 2000), quoting In re Michael, 119 Ohio App.3d 112, 119, 694
N.E.2d 538 (2d Dist.1997). Accord State v. Hermis, 2d Dist. Clark
No. 2003-CA-21, 2005-0hio-51, 52 ("impeaching a witness's
credibility is an insufficient reason for admitting evidence that
violates the Rape Shield Law").
[*P83] Hawkins does not assert any specific basis for admitting the
evidence in question, and it is apparent that the purpose would have
been to challenge A.J.'s credibility, which is forbidden under R.C.
2907.02(D) and cases interpreting the statute. Accordingly, defense
counsel did not act ineffectively in allegedly failing to argue for
admission of the testimony. Moreover, as the State notes, defense
counsel did raise this point with the trial court.
[*P84] The fourth issue that Hawkins raises is defense counsel's
alleged ineffectiveness in failing to provide the trial court with
evidence during the pre-indictment hearing that would have
corroborated phone calls that Tony Ousley made to the Dayton
Police Department. Notably, nothing to this effect was raised during
the pre-indictment hearing, even though Hawkins testified at length
on two different occasions — initially on July 23,2015, and then on
rebuttal on August 19, 2015, when Hawkins indicated that he had
"remembered some facts that he did not testify to at the previous
hearing." Transcript of Proceedings (Evidentiary Hearing), p. 126.
[*P85] At the subsequent jury trial, Hawkins discussed some events
that allegedly occurred after the DNA swab was taken in late
December 2003. According to Hawkins, he told his friend,
"Moochie," about the fact that he had been swabbed. Moochie then
contacted Ousley, who called the Dayton police. Apparently, the
purpose of this call was to inform someone at the police department
that Hawkins had not raped anyone.
[*P86] At trial, Hawkins did not identify any person who was called,
the date the call took place, the number that was called, or Ousley's
phone number. Hawkins testified that Ousley talked to detectives for
15-20 minutes. Hawkins then talked to someone and handed the
phone back to Ousley. According to Hawkins, when he talked to this
detective on the phone, he was told the detective would "take care"
of it. As a result, Hawkins thought the issue had been resolved.
[*P87] Hawkins now argues that trial counsel was ineffective
because he failed to subpoena telephone call records from the DPD
for use at the pre-indictment delay hearing.

32

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 33 of 39 PAGEID #: 2361

[*P88] As the State notes, these assertions are wholly speculative.
There is no evidence in the record concerning these alleged facts,
other than Hawkins' unsubstantiated and,vague statements about a
phone call at some unidentified date tq unidentified persons. The
record does not even contain any indication that the policedepartment recorded calls or numbers for calls, or that telephone
records were maintained or preserved. Furthermore, as the State
points out, the record lacks any indication that even if such records
were maintained, they would indicate who was on a particular
telephone call. Accordingly, we cannot conclude under this set of
facts that trial counsel was ineffective when he failed to subpoena
such records for the pre-indictment delay hearing.
[*P89] Hawkins' final point pertains to trial counsel’s failure to
provide the State with notes of his investigator's conversation with
A.J. According to Hawkins, this failure prevented trial counsel from
being able to properly cross-examine and impeach A.J. about
comments she made to the investigator. The comment that Hawkins
mentioned concerns A.J.'s statement that the knife was "closed"
rather than open at the time of the assault.
[*P90] Hawkins’ complaint in this context is unclear. At some point
prior to trial, Hawkins' investigator, Wayne Miller, spoke with A.J.
over the telephone. Subsequently, at trial, A.J. testified that Hawkins
threatened her with a pocket or kitchen knife prior to the rape, by
holding it against her neck. She stated that it was more like a kitchen
knife and had a pointed end. During cross-examination, A.J. said she
did not recall talking to Miller about a week before trial, and denied
telling him that the knife was like a folding knife and was closed,
rather than open. Transcript of Proceedings (Jury Trial), Vol. I, pp.
89-91.
[*P91] At that point,The State objected because it had not received
a copy of Miller's report. Defense counsel indicated that Miller had
not made a report; instead, Miller simply told counsel about the
conversation. Id. at p. 92. The following exchange then occurred:
MS. DODD [the prosecutor]: Well, you're — under the
discovery rules as they exist now —
MR. CASS [defense counsel]: That I have to make a
report?
MS. DODD: — we're entitled to the information.

33

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 34 of 39 PAGEID #: 2362

THE COURT: That’s true. As I, I don't have Rule 16 in
front of me but I think that is the gist of it. If it's — but it is
quite surprising that she doesn't even remember the phone
conversation.
MS. DODD: She remembers the phone [conversation].
She's told us about the phone conversation. I don't know I
should —
THE COURT: Well, then you —
MS. DODD: And I, we'll have to talk to her about that. But
she does remember the phone conversation.
MR. CASS: I mean I can have him prepare a report for you.
MS. DODD: Well, it isn't going to do me any good now.
THE COURT: How much further are you going to go with
what she told Miller?
MR. CASS: I don't know if I have anything else.
THE COURT: All right. If that's the extent of it, it's done.
What’s done is done and you [the State] can talk about it
with her on redirect. Okay?
But if Miller's going to testify about it
And
(indiscernible) evidentiary issues regarding that. But if he
is, you need a report before he testifies.
MR. CASS: Okay.
Transcript of Trial Proceedings, Vol. I, pp. 92-93.
[*P92] At this time, the only party potentially prejudiced was the
State, as it did not have a report from the defense investigator.
Subsequently, during redirect examination, the State did question
A.J. about the phone call. A.J. then said that she recalled receiving
a phone call from an investigator in the last few weeks. She first5
stated That the individual identified himself as an investigator
working for the defendant and then said she thought it was a ,
prosecutor because that is what he said on the phone. Id. at pp. 100102.

34

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 35 of 39 PAGEID #: 2363

[*P93] Miller was then called as a witness during the defense case.
Miller explained that he had tried to contact A.J., and that she had
actually called him at his office. According to Miller, A J. brought
up the knife issue during their conversation. Her statement was that
the knife had a brown handle and was closed. Transcript of
Proceedings, Vol. II, p. 343-344.
[*P94] During Miller’s cross-examination, the prosecutor stated that
"And with respect to [A.J.’s] conversation with you — now that
we've moved courtrooms, I have to find your report. Let me find my
copy of your report. I moved it when we moved courtrooms." Id. at
p. 346. The State then cross-examined Miller about his conversation
with A.J. and his report. Id. at 347-349. In addition, the defense
questioned Miller about the conversation with A.J. on redirect
examination. Id. at pp. 350-351.
[*P95] In light of these circumstances, Hawkins’ claim of ineffective
assistance of counsel is without merit. Defense counsel was able to
impeach A.J. concerning her inconsistent statements about the knife,
and was also able to present testimony from the defense investigator
during Hawkins’ defense case, because Hawkins did produce a
report for the State. The record does not indicate that any more could
or should have been done.
[*P96] Based on the preceding discussion, we find no evidence of
ineffective assistance of counsel. Accordingly, the Fifth (and
Second Supplemental) Assignment of Error is overruled.
State v. Hawkins, 2018-Ohio-867.
In his Reply, Hawkins argues Cass should have called A.J. at the motion to dismiss hearing
because her lapses in memory would have shown the trial judge the needed actual prejudice from
pre-indictment delay. As the Second District found, her memory lapses would have benefited
Hawkins and in any event the identity of witnesses to call is reserved for trial counsel’s discretion.
As to the jury view, Hawkins has shown no prejudice from its occurrence. He does not
dispute the findings of the Second District that it was requested by both parties and that his own
description of the route he and A.J. took the night of the events was confused. Regarding the
omitted subpoena to the Dayton Police Department for telephone records, Hawkins’ claim that

35

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 36 of 39 PAGEID #: 2364

they could have been easily produced from ten years earlier is unsubstantiated. Lastly, defense
counsel did produce a report from the investigator and the lack of a report in the first instance did
not prevent relevant testimony.
In sum, Hawkins has not shown that the Second District’s decision on his five specific sub­
claims of ineffective assistance of trial counsel is an unreasonably application of Strickland. His
Fifth Ground for Relief should be dismissed on that basis.

Ground Six: Denial of Due Process by Trial Court Error

In his Sixth Ground for Relief, Hawkins claims the trial court denied him a fair trial by
allowing the jury view, by cutting his own testimony short, and by violating unspecified Ohio
statutes and rules of evidence.. The Second District decided this claim on the merits and the
Warden concedes it is preserved for merit review here, albeit the review is required to be
deferential under AEDPA.
The Second District understood this to be a federal constitutional claim, but found there
was no abuse of discretion in allowing the view even though many structures in the area had been
tom down. Hawkins pointed to no relevant federal case law in his brief to the Second District and
cites none in this Court. A jury view is not evidence under Ohio law and the trial judge correctly
instructed the jury to that effect. State v. Richey, 64 Ohio St. 3d 353, 367 (1992); State v. Hopfer,
112 Ohio App. 3d 521, 542 (1992). Whether to grant a jury view is “within the sound discretion
of the trial court.” State v. Lundgren, 73 Ohio St. 3d 474, 490 (1995), quoting Calloway v.
Maxwell, 2 Ohio St.2d 128 (1965). But abuse of discretion is not a denial of due process Sinistaj
v. Burt, 66 F.3d 804, 807-08 (6th Cir. 1995). There is no constitutional right for a defendant to be

36

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 37 of 39 PAGEID #: 2365

present at a jury view. Snyder v. Massachusetts, 291 U.S. 97, 108 (1934). Therefore, the Second
District’s decision on the jury view issue is not an objectively unreasonable application of clearly
established Supreme Court precedent and is entitled to deference.
Hawkins also claimed on direct appeal that the trial court had denied him due process and
particularly the right to defend himself by cutting short his testimony. As the Second District
noted, Hawkins had already left the witness stand when he interrupted the court and asked to say
something more. State v. Hawkins, 2018-Ohio-867 ^ 105. His counsel did not seek to reopen his
testimony and he does not indicate to what he was prevented from testifying. There is no i
constitutional right to reopen one’s testimony once one has left the witness stand. At trial the judge
cut Hawkins off by preventing him from testifying to hearsay, to wit, things said to him by
deceased witnesses. There is no constitutional right to present hearsay testimony in one’s defense.
The Second District’s decision on this issue is also entitled to deference under AEDPA and
Hawkins Sixth Ground for Relief should be dismissed.

Ground Seven: Prosecutorial Misconduct

In his Seventh Ground for Relief, Hawkins asserts the prosecutor committed misconduct
by withholding exculpatory material required to be produced under Brady v. Maryland, 373 U.S.
83 (1963).

He also asserts the prosecutor misrepresented the evidence and produced false

evidence. In the Petition these claims are made very generally: he does not state what Brady
evidence was withheld, what false evidence the State produced, or what evidence the prosecutor
misrepresented.
On direct appeal, Hawkins asserted misconduct in the inclusion of an allegation in the

37

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 38 of 39 PAGEID #: 2366

indictment that the victim as under age thirteen or was incompetent. The Second District found
this claim forfeited by failure to object to the indictment in the trial court. State v. Hawkins, 2018Ohio-8667,1 112-18.
As to Brady material, Hawkins claimed on direct appeal that the State had suppressed the
victim’s Grandview Hospital records regarding a prior assault and her mental health records. The
Second District found that those were not Brady material because Hawkins had knowledge of
them. The court further found that the records were not suppressed by the State because they had
only ever been in the possession of the hospital and had been destroyed pursuant to the hospital s
routine records disposition policy. Id. atfl 121-26.
In his Reply, Hawkins complains about improper witness vouching in closing argument
and cross-examination which was intended to undermine his credibility (ECF No. 18, PagelD
2321). Neither of these claims was raised in the state courts and they are therefore procedurally
defaulted. As to Brady material, he claims in the Reply that the State is withholding Detective
Olinger’s case file pertaining to this case. Id. at PagelD 2322. That claim was also not raised on
direct appeal and is thereby procedurally defaulted.
With respect to the Brady claims actually made on direct appeal, Hawkins merely repeats
his allegations about A.J.’s hospital and mental health records without rebutting the findings of the
court of appeals about which entity had possession of them. Id. at PagelD 2322.
Based on this Court’s review, the Second District’s decision is not an objectively
unreasonable application of Brady or of other Supreme Court precedent on prosecutorial
misconduct. Therefore, the state court decision is entitled to deference under AEDPA and Ground
Seven should be dismissed.

38

Case: 3:19-cv-00072-TMR-MRM Doc #: 19 Filed: 12/04/19 Page: 39 of 39 PAGEID #: 2367

Conclusion

Based on the foregoing analysis, it is respectfully recommended that the Petition be
dismissed with prejudice. Because reasonable jurists would not disagree with this conclusion,
Petitioner should be denied a certificate of appealability and the Court should certify to the Sixth
Circuit that any appeal would be objectively frivolous and therefore should not be permitted to
proceed in forma pauperis.

December 4,2019.

s/ MtcftaeC'R. Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Pursuant to Fed. R. Civ. P. 6(d), this period is extended to seventeen days
because this Report is being served by mail. Such objections shall specify the portions of the
Report objected to and shall be accompanied by a memorandum of law in support of the objections.
A party may respond to another party’s objections within fourteen days after being served with a
copy thereof. Failure to make objections in accordance with this procedure may forfeit rights on
appeal. See Thomas v. Am, 474 U.S. 140, 153-55 (1985); United States v. Walters, 638 F.2d 947,
949-50 (6th Cir. 1981).

39

